App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 20-10044
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket Nos.
6:19-cv-00699-PGB; 6:15-bk-06458-CCJ
WILLIAM W. COLE, JR.,
Plaintiff-Appellant,
versus
PRN REAL ESTATE & INVESTMENTS, LTD.,
NANCY ROSSMAN,
LORI PATTON, Trustee,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Middle District of Florida
-----------------------------------------------------------------------

(September 29, 2020)
Before MARTIN, LAGOA, and ANDERSON, Circuit
Judges.

App. 2
PER CURIAM:
William Cole, Jr., appeals the district court’s order afﬁrming the bankruptcy court’s resolution of his
Chapter 7 bankruptcy petition. He argues that the
bankruptcy court incorrectly apportioned the proceeds
from the sale of his lakefront homestead property. Cole
moves to certify the question of apportionment to the
Florida Supreme Court. Cole also says that the State
of Florida has title to the portion of his property beneath the lake’s surface, and that he did not mislead
the bankruptcy court by gerrymandering his homestead parcel to exclude this underwater portion. After
careful consideration, we deny Cole’s motion to certify
and afﬁrm the judgment of the bankruptcy court.
I.
In 2001, Cole purchased 2.95 acres of property on
Lake Minnehaha in the city of Maitland, Florida. The
property included approximately .765 acres of dry land
and 2.185 acres of land beneath the surface of the lake.
Cole built a 10,000 square foot home on the property
and lived there with his family Cole held title to the
property, as a single parcel of land, through a selfsettled revocable trust (the “Trust”).
In 2015, however, Cole began preparing to file for
bankruptcy after stalled negotiations with his creditor, PRN Real Estate & Investments, Ltd. (“PRN”). In
January 2015, Cole asked a surveyor to divide his
lake property into two parcels. The first parcel encompassed the dry land containing Cole’s home, dock,

App. 3
and boathouse, and the second parcel encompassed the
land at the lake bottom. In June 2015, Cole executed a
special warranty deed conveying the lake bottom land
from the Trust back to the Trust.
In July 2015, Cole ﬁled his Chapter 7 bankruptcy
petition. His sworn schedules listed his lake property
as two separate parcels of land: the dry property (with
an estimated value of $2.5 million) and the lake bottom property (with a value of $1,000). Cole designated the dry property as his homestead. Under the
Florida Constitution, a debtor’s homestead is exempted from forced sale following bankruptcy. See Fla.
Const. art. X, § 4. But if a debtor’s homestead is located
within a municipality, as is Cole’s, only one-half acre of
contiguous land is protected by the homestead exemption. Id. By claiming the homestead exemption, Cole
sought to shelter the dry property—the smaller of the
two newly created parcels—from forced sale.
Both PRN and Cole’s bankruptcy trustee, Lori Patten, objected to Cole’s designation of the dry property
as his homestead. PRN asked the bankruptcy court to
deny Cole a homestead exemption in light of Cole’s attempt to split his lake property and thereby fraudulently gerrymander his homestead. Both PRN and the
trustee argued that the bankruptcy court should consider Cole’s dry and submerged property as one parcel
when evaluating Cole’s homestead exemption claim.
Cole responded that he was entitled to a homestead exemption regardless of his pre-bankruptcy conduct. He also raised a new argument that the land at

App. 4
the bottom of the lake belonged to the State of Florida,
so the bankruptcy court could not consider it part of
his homestead.
The bankruptcy court held a two-day trial on the
issue of Cole’s homestead property. After trial, the
court found that Cole had been “misleading” in claiming his lake property as two separate parcels in the
bankruptcy petition, and that his explanations for the
split were “not credible.” Nevertheless, it held Cole was
still entitled to a homestead exemption under Florida
law. The court then addressed which portions of the
lake property were relevant to Cole’s homestead exemption claim. Because all agreed that the lake bottom
property had “little value and utility,” the court treated
Cole’s lake property “as indivisible” and directed the
sale of the property with apportionment of the proceeds to Cole and his creditors.
The bankruptcy court declined to consider the
question of the lake bottom property’s ownership, because to do so would give credence to Cole’s “blatant
and inequitable” attempt to gerrymander his property
before ﬁling for bankruptcy. The court also found that
the issue of whether title to the lake bottom land belonged to Cole or the State of Florida was not a proper
question for the court to decide, especially since Florida had not asserted claim to title in almost 150 years
of record title history. Instead, the court considered the
State’s interest in the lake bottom land “as a potential
cloud on title” and assumed “that Debtor owns all of
the Property as a single indivisible parcel.”

App. 5
Finally, the bankruptcy court allowed Cole to
claim a homestead exemption despite his misleading pre-bankruptcy conduct. Because Cole’s homestead
property was more than one-half acre and indivisible,
the court decided that Cole could beneﬁt from the
homestead exemption by receiving a portion of the
proceeds from the sale of his property. The court held
that Cole would receive proceeds in the amount of a
simple percentage of the exempt acreage, here .5 acres,
divided by the total acreage of his property, here 2.95
acres. From this calculation, Cole would receive 16.95%
of the proceeds from the sale of his property.
Cole appealed this ruling to the district court for
the Middle District of Florida. The district court afﬁrmed the bankruptcy court’s decision in full. Cole
appealed, raising several claims of error in the bankruptcy court’s decision. Cole also moves this Court to
certify a question of law to the Florida Supreme Court.
II.
“In a bankruptcy case, this Court sits as a second
court of review.” In re Brown, 742 F.3d 1309, 1315 (11th
Cir. 2014) (quotation marks omitted). “[W]hen a district court afﬁrms a bankruptcy court’s order . . . this
Court reviews the bankruptcy court’s decision.” Id. “We
review the bankruptcy court’s factual ﬁndings for clear
error and its legal conclusions de novo.” Id. (quotation
marks omitted). We may afﬁrm on any ground that is
supported by the record. Big Top Koolers, Inc. v. CircusMan Snacks, Inc., 528 F.3d 839, 844 (11th Cir. 2008).

App. 6
III.
A.
Cole ﬁrst argues that the bankruptcy court erred
by allocating the proceeds of the homestead sale by “a
simple percentage of the exempt acreage to the total
acreage of the property.” He says that the bankruptcy
court contradicted “binding Eleventh Circuit precedent” because our Court had established a different
standard for allocating these proceeds. Speciﬁcally, he
says our Court has endorsed a method of calculation
that the Eighth Circuit set forth in O’Brien v. Heggen,
705 F.2d 1001 (8th Cir. 1983).
We begin with the text of the Florida constitutional homestead exemption. In relevant part, Article
10, § 4, of the Florida Constitution provides:
There shall be exempt from forced sale under
process of any court . . . the following property
owned by a natural person: a homestead, if located outside a municipality, to the extent of
one hundred sixty acres of contiguous land
and improvements thereon . . . ; or if located
within a municipality, to the extent of one-half
acre of contiguous land, upon which the exemption shall be limited to the residence of
the owner or the owner’s family
Fla. Const. art. X, § 4(a) (emphasis added).
The bankruptcy court held that Cole was entitled
to the beneﬁt of the homestead exemption here. Cole’s
property, however, exceeded the one-half acre of property allowed for a municipal homestead. Ordinarily, if

App. 7
a Florida homeowner’s property “exceeds the one-half
acre allowed for [a] municipal homestead,” then “he
cannot declare as exempt his entire parcel, but may select his homestead in any continuous shape from his
qualifying lands.” In re Kellogg, 197 F.3d 1116, 1120
(11th Cir. 1999) (quotation marks omitted). However,
the bankruptcy court determined that, under Kellogg,
Cole could not carve out a half-acre homestead from
his property. The court reasoned that Cole’s land was
indivisible, since the lake bottom property was worthless if separated from the dry property. If a homestead
parcel is indivisible, “sale [of the parcel] and apportionment of the proceeds is an equitable solution [and] allows for an appropriate recognition of the debtors’
homestead exemption.” In re Englander, 95 F.3d 1028,
1032 (11th Cir. 1996). The bankruptcy court thus ordered the parcel sold and decided that Cole would receive proceeds in the amount of “a simple percentage
of the exempt acreage [.5 acres] to the total acreage of
the property.”
On appeal, Cole does not challenge the bankruptcy
court’s ﬁnding of indivisibility.1 Neither does Cole dispute that the proper way to apply the homestead exemption to indivisible land is to sell the property and
apportion the proceeds. Instead, Cole takes issue with
the bankruptcy court’s method of apportioning the
1

Cole does argue that the bankruptcy court should have
found that the submerged land never belonged to him, but to the
State of Florida. However, Cole makes no argument that, if he
owns the entire parcel, the submerged portion was divisible from
the dry portion.

App. 8
proceeds from the sale of his land. Cole argues that the
bankruptcy court erred by not following the Eighth
Circuit’s decision in O’Brien.
O’Brien considered the application of Minnesota’s
homestead exemption statute to a parcel of land exceeding the protected homestead area. 705 F.2d at
1003. The O’Brien debtor acknowledged that his outsized parcel should be sold. Id. But he argued that the
non-exempt portion of his land was “virtually worthless, thus entitling him to keep the [entire] proceeds of
the sale, less a nominal amount of $1,000 attributable
to the non-exempt portion.” Id. The Eighth Circuit rejected this argument. It held that the bankruptcy court
had fairly apportioned the proceeds from the sale by
assessing the value per square foot of the unimproved
land, then multiplying this value “to the total number
of square feet in excess of the [homestead] acre limitation.” Id. at 1004 & n.4. This calculation “determined
the non-exempt portion of the proceeds.” Id. at 1004.
The rest of the proceeds went to the debtor in recognition of his homestead exemption. See id. This method,
the Eighth Circuit held, was not “clearly erroneous.” Id.
Cole argues that, under O’Brien, the bankruptcy
court should have apportioned the parcel sale proceeds
by considering only the value of the unimproved land.
If the bankruptcy court were to determine the nonexempt portion of the proceeds using the value of the
land in its unimproved state, Cole would retain the full
value of his home and other improvements through the
homestead exemption. Cole argues that this outcome
is consistent with the typical application of the Florida

App. 9
homestead exemption, where debtors are permitted to
keep the full value of their half-acre homestead, including the value of any improvements to this parcel.
O’Brien interpreted another state’s homestead
exemption and the surrounding case law. See 705
F.2d at 1003-04 (applying Minnesota law). And contrary to Cole’s assertion, our Court has not endorsed
O’Brien’s method of apportioning homestead sale
proceeds. Cole points to this Court’s decisions in Kellogg and Englander. But in Englander, our Court
merely noted that the Eighth Circuit had approved
“the sale of a property and apportionment of the proceeds in a situation where the property exceeded the
state homestead limitation on area.” 95 F.3d at 1032.
Kellogg’s reference to O’Brien stood for the same proposition: “that partition was equitable and proper when
the debtor’s homestead exceeded the amount allowed
in the [homestead exemption] and was indivisible.”
197 F.3d at 1121. Neither Kellogg nor Englander discussed O’Brien’s method for apportioning sale proceeds. The bankruptcy court thus did not contradict
“binding Eleventh Circuit precedent” by declining to
apply O’Brien when apportioning the proceeds in
Cole’s case.
Beyond this, the only court in this circuit to address apportionment has recognized that, under Florida law, it is permissible to apportion the proceeds of a
homestead parcel sale, including the value of any improvements, by a pure percentage of protected acreage
to overall acreage. In In re Quraeshi, 289 B.R. 240 (S.D.
Fla. 2002), the bankruptcy court applied the Florida

App. 10
homestead exemption to order a sale of the debtor’s indivisible, oversized property and apportionment of the
proceeds. See id. at 241. The bankruptcy court determined “that one-half acre constituted 19 percent of the
total [parcel] acreage . . . [so] the Debtor was entitled
to 19 percent of the [sale] proceeds.” Id. In this way, the
bankruptcy court apportioned the total proceeds by the
percentage of homestead-protected acreage to overall
acreage. See id.
The bankruptcy court in Cole’s case followed the
process used by the bankruptcy court in Quraeshi by
apportioning the sale proceeds to Cole based on a percentage of homestead-protected acreage to overall
acreage. Cole argues that he should be able to carve
out the full value of one-half of an acre of his land, including the value of his home and other improvements.
However, the Quraeshi court held that “permitting a
debtor to ‘carve out’ a one-half acre of land[ ] refers only
to cases where it is possible, and legal and practical,
for the debtor’s real property to be physically partitioned into a homestead-exempt one-half acre . . . and
a remaining non-exempt portion.” Id. at 244. And although Cole relies on O’Brien, Quraeshi observed that
it was not bound by O’Brien’s interpretation of an entirely different statute and accompanying case law. Id.
at 245 n.1.
Cole points out that, on appeal to the district court,
the Quraeshi debtor raised a different issue and “d[id]
not challenge the bankruptcy court’s ruling . . . that
the Debtor is entitled to 19 percent of the claimed
homestead.” Id. at 242. Nevertheless, the bankruptcy

App. 11
court’s apportionment in Quraeshi still supports that
apportioning proceeds by percentage of homestead
acreage to overall acreage is a valid interpretation of
the Florida homestead exemption.
In sum, it was not legal error for the bankruptcy
court to follow Quraeshi’s interpretation of the Florida
homestead exemption instead of O’Brien’s interpretation of Minnesota law. Cole asks to certify the question
of whether apportionment under Florida homestead
exemption follows the rule in O’Brien or the rule in
Quraeshi. This Court may certify a question to the
Florida Supreme Court if “we maintain more than
‘substantial doubt’ as to how the issue before us would
be resolved under Florida law.” Toomey v. Wachovia
Ins. Servs., Inc., 450 F.3d 1225, 1231 (11th Cir. 2006).
In light of the precedent supporting the bankruptcy
court’s apportionment of the proceeds, however, we do
not have substantial doubt as to the correctness of the
bankruptcy court’s decision. See id.
B.
Next, Cole argues that the bankruptcy court
should have decided whether he or the State of Florida
has ownership of the lake bottom land. Cole says that
the bankruptcy court should have determined that the
State of Florida owns the submerged land in his parcel.
PRN responds that Cole is estopped from challenging
his ownership of the lake bottom land, because he
claimed ownership of this land in the sworn schedules
of his bankruptcy ﬁlings. We agree with PRN.

App. 12
Generally, “a party is bound by the admissions in
his pleadings.” Best Canvas Prods. & Supplies, Inc. v.
Ploof Truck Lines, Inc., 713 F.2d 618, 621 (11th Cir.
1983). For this reason, “[n]umerous courts have held
that statements in bankruptcy schedules that are executed under penalty of perjury are eligible for treatment as judicial admissions.” Ussery v. Allstate Fire &
Cas. Ins. Co., 150 F. Supp. 3d 1329, 1344 & n.10 (M.D.
Ga. 2015) (quotation marks omitted and alterations
adopted) (collecting cases); see, e.g., In re Kane, 470
B.R. 902, 925 (Bankr. S.D. Fla. 2012) (noting that bankruptcy schedules “are signed under oath and constitute
admissions with regard to the information contained
therein”); Matter of Musgrove, 187 B.R. 808, 812 (Bankr.
N.D. Ga. 1995) (ﬁnding that an entry in the debtor’s
schedule “constitutes a judicial admission”). A fact judicially admitted is a fact “established not only beyond
the need of evidence to prove [it], but beyond the power
of evidence to controvert [it].” Cooper v. Meridian
Yachts, Ltd., 575 F.3d 1151, 1178 (11th Cir. 2009).
In his bankruptcy schedules, Cole swore under
penalty of perjury that he owned the submerged land
by revocable trust. Cole stated that he was the “Owner”
of the lake bottom parcel and the “Deed/Legal Title is
held by: William W. Cole, Jr. Family Trust.” Cole never
amended his sworn schedules. Even so, at the trial held
in the bankruptcy court, Cole argued for the ﬁrst time
that the State of Florida owned the submerged land.
Cole is bound by his sworn admission in the bankruptcy schedules. He cannot later contradict this admission with evidence that the State of Florida owned

App. 13
the lake bottom land. See Cooper, 575 F.3d at 1178.
Thus, the bankruptcy court did not err in declining to
decide ownership of the parcel, because Cole had admitted his ownership. We afﬁrm the bankruptcy court’s
decision on this ground.
C.
Finally, Cole argues that the bankruptcy court
clearly erred in ﬁnding that he misleadingly gerrymandered his homestead parcel. We hold that, in light
of the factual record, this ﬁnding was not clear error.
The bankruptcy court held that Cole’s attempts to
split his land into dry and submerged parcels were
misleading and even “a species of fraud.” The bankruptcy court considered the fact that Cole, as a real estate investor and developer of over 20 years, had
“admitted expertise in matters of real estate.” The
court noted that, two days after negotiations between
Cole and his creditor PRN went south, Cole asked a
surveyor to split his lake property into dry and wet
land. Further, Cole did not use the “ordinary high water mark” to divide his parcel, but requested a boundary line that included his boathouse in the dry parcel
he claimed as his homestead. Cole then executed a
warranty deed to convey the lake bottom parcel from
the Trust back to the Trust. However, Cole denied
that he split his property solely for fraudulent “prebankruptcy planning” reasons. Yet Cole did not seek
approval from the city of Maitland before executing
this deed, even though he had experience obtaining a

App. 14
zoning variance when splitting similar parcels. And of
course, Cole represented in his bankruptcy schedules
that the dry parcel was his homestead and that the wet
parcel was an unrelated property.
On these facts, the bankruptcy court permissibly
found that Cole misleadingly manipulated his homestead exemption by attempting to split his parcel. And
even if this ﬁnding was clear error, Cole suffered no
harm from this determination, because the bankruptcy
court held he was “nevertheless entitled to his constitutional homestead exemption.”
IV.
The bankruptcy court did not apply an incorrect
legal standard to apportion the sale proceeds of Cole’s
homestead property. Neither did the bankruptcy court
wrongly decline to hold that Cole’s submerged property
was owned by the State of Florida. Finally, the bankruptcy court’s factual ﬁndings do not amount to clear
error. The judgment of the bankruptcy court is AFFIRMED, and Cole’s motion to certify a question to
the Florida Supreme Court is DENIED.

App. 15
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
In Re: William W. Cole, Jr.
WILLIAM W. COLE, JR.,
Appellant,
Case No:
6:19-cv-699-Orl-40

v.
LORI PATTON, PRN REAL
ESTATE AND
INVESTMENTS, LTD.
and NANCY ROSSMAN,
Appellees.

/

ORDER
(Filed Dec. 20, 2019)
This cause comes before the Court without oral argument on the following:
1.

Initial Brief of Appellant William W. Cole, Jr.
(Doc. 19), ﬁled July 8, 2019;

2.

Brief of Appellees PRN Real Estate & Investments, Ltd., and Nancy Rossman (Doc. 29),
ﬁled August 19, 2019;

3.

Reply Brief of Appellant William W. Cole, Jr.
(Doc. 34), ﬁled September 3, 2019.

Appellant appeals the ﬁnal order of the Bankruptcy Court rejecting his attempts to circumvent the
one-half acre constitutional limit on his homestead

App. 16
exemption and holding that his homestead property
consisted of an indivisible 2.95-acre site. (Doc. 11-2).
After reviewing the entirety of the record, including
the briefs ﬁled by all parties, this Court afﬁrms the ﬁnal order of the Bankruptcy Court for the reasons set
forth below.
I.

BACKGROUND

In 2001, Appellant purchased 2.95 acres of property at 608 Bentley Lane, Maitland, Florida (the
“Property”). (Doc. 11-2, pp. 2-3). The Property abutted
Lake Minnehaha and consisted of both dry land and
lake bottom. (Id.). Soon after purchasing the Property,
Appellant constructed a 10,000 square foot home. (Id.
at pp. 3-4). At all relevant times, either Appellant or
his family resided on the Property. (Id. at p. 4).
The Florida Constitution exempts a debtor’s homestead from forced sale following bankruptcy. FLA.
CONST. art. X, § 4. If a homestead is located within a
municipality, the constitutional homestead limit is onehalf acre of contiguous land. Id. Appellant’s Property is
located within the City of Maitland, a municipality.
Knowing this, Appellant engaged in “blatant and inequitable” attempts to redraw the boundaries of his lot
“on the eve of his bankruptcy ﬁling.” (Doc. 11-2, p. 19).
Until 2015, Appellant held title to the Property—
as a single intact parcel—under a self-settled revocable

App. 17
trust (the “Trust”). (Id. at p. 4).1 On January 26, 2015,
Appellant and Appellee PRN attempted to resolve Appellant’s underlying debt obligation, but the mediation
resulted in an impasse. (Id. at p. 7). Two days later, Appellant began preparations for bankruptcy. (Id.). Speciﬁcally, he asked a surveyor to “have [the Property]
broken out into two surveys.” (Id.). The new surveys
purported to divide the Property into one lot encompassing Appellant’s home, dock, and boathouse (the
“Improved Land”) and another containing the residual
submerged land (the “Unimproved Land”). (Id. at p. 4).2
The Unimproved Land does not front a road and is accessible only by water. (Id.).
In June 2015, Appellant executed a special warranty deed conveying the Unimproved Land from the
Trust back to itself. (Id.). Shortly thereafter, Appellant
ﬁled a Chapter 7 bankruptcy petition. (Id. at p. 5). His
sworn schedules list the Property as two separate parcels: the Improved Land with an estimated value of
$2.5 million and the Unimproved Land with a value of
$1,000. (Id.). The schedules do not make any reference
1

Pursuant to Fla. Stat. § 736.0505(1), property owned by a
revocable trust is subject to the settlor’s creditors during the settlor’s lifetime. Thus, because Appellant’s trust is revocable, the
Property is part of his bankruptcy estate and subject to the claims
of his creditors except to the extent exempted by the homestead
exemption.
2
The Bankruptcy Court referred to the Improved Land as
“Upland Property” and the Unimproved Land as “Submerged
Land.” However, because the so-called Upland Property actually
includes some submerged land, this Court feels that Improved
and Unimproved are more apt descriptions.

App. 18
to the size of the parcels or indicate that the parcels
are contiguous. (Id.). Appellant claimed the Improved
Land as his homestead, but not the Unimproved Land.
(Id.).
At trial, Appellant “discounted the suggestion
that his request to divide the survey was made solely
for purposes of ‘pre-bankruptcy planning.’ But he did
acknowledge that bankruptcy might have been one of
the reasons.” (Id. at p. 7). He also admitted that he directed the surveyor to use a boundary line other than
the ordinary high-water mark line because he wanted
to ensure that his boathouse was protected against
creditors. (Id.). He characterized his execution of the
special warranty deed as a “bifurcation of a deed,” and
claimed that he did not intend to create a second lot.
(Id.). He admitted that he did not obtain any type of
approval or seek a zoning variance in order to split the
Property, and that the Unimproved Land was unmarketable in isolation. (Id.).
It now appears undisputed that Appellant’s execution of the special warranty deed “did not change anything.” (Doc. 19, p. 29).3 Apparently recognizing that
the so-called deed bifurcation would be unsuccessful
in reducing the size of his homestead, Appellant advanced a new legal theory. Nearly one year after his
3

Appellant argues without elaboration that the Bankruptcy
Court’s ﬁnding that the so-called deed bifurcation was “impermissible” was clearly erroneous. (Doc. 19, p. 5). However, the Bankruptcy Court received extensive evidence to support its conclusion
that the special warranty deed constituted a “lot split” in violation
of Maitland zoning regulations. (Doc. 11-2, pp. 8-9).

App. 19
initial Chapter 7 petition, Appellant ﬁrst claimed that
the land beneath Lake Minnehaha is owned by the
state of Florida and not the Trust.4 Accordingly, Appellant contends that the Unimproved Land could not be
included in his homestead property because it was
never his in the ﬁrst place.
At trial, the Bankruptcy Court weighed “reasoned
arguments” and “compelling and credible” expert testimony provided by both parties. (Doc. 11-2, p. 17). After
detailed consideration of the evidence and law, the
Bankruptcy Court concluded:
In sum, the court views the matter of the
state’s interest, if any, in the [Unimproved
Land] as a potential cloud on title. This may
impact the value the Trustee ultimately obtains for the Property upon sale or may impact some future owner if and when the state
elects to lay claim to the [Unimproved Land]
or Lake Minnehaha more generally. But for
purposes of this case and in determining [Appellant’s] homestead exemption, the Court
concludes that it must assume that [Appellant] owns all of the Property as a single individual parcel.
(Id. at pp. 20-21).
Finally, the parties agreed with the general
proposition that when a debtor’s homestead property
exceeds the constitutional acreage limitation and is
4

Appellant argues that he did not raise the issue of the Unimproved Land’s ownership until July 2016 because Appellees
“never asked.” (Doc. 19, p. 29).

App. 20
indivisible, the appropriate means by which to honor
the claimed homestead while also providing value to
creditors is to direct a sale of the property and allocate
the net proceeds between the debtor and the bankruptcy estate. However, they disagreed as to how that
allocation is to be made. The Bankruptcy Court ultimately determined that proper apportionment was a
simple percentage of the exempt acreage to the total
acreage of the subject property. (Id. at p 22).
This appeal followed.
II.

STANDARD OF REVIEW

The Court has jurisdiction over this appeal from
the ﬁnal order of the Bankruptcy Court pursuant to 28
U.S.C. § 158. In bankruptcy appeals, the district court
reviews the bankruptcy court’s factual findings for clear
error and its resolution of legal questions de novo. In re
Coady, 588 F.3d 1312, 1315 (11th Cir. 2009) (per curiam).
III. ISSUES ON APPEAL
1.

Whether the Bankruptcy Court clearly erred
in ﬁnding that Appellant’s actions and Bankruptcy Schedules were misleading or a species
of fraud.

2.

Whether the Bankruptcy Court applied the
correct legal standard to determine that Appellant “gerrymandered” his homestead.

App. 21
3.

Whether the Bankruptcy Court erred by admitting the Appellees’ expert witness.

4.

Whether the Bankruptcy Court applied the
correct legal standard in attributing the Unimproved Land to Appellant without conclusively determining ownership.

5.

Whether the Bankruptcy Court applied the
correct legal standard to allocate the homestead sale proceeds.

IV. ANALYSIS
Appellant raises a series of objections to the Bankruptcy Court’s order. The Bankruptcy Court properly
rejected each of these arguments, and this Court now
afﬁrms.
A. Whether the Bankruptcy Court clearly
erred in finding that Appellant’s actions and Bankruptcy Schedules were
misleading or a species of fraud
Appellant’s ﬁrst argument seemingly takes issue
with the language used by the Bankruptcy Court to describe his conduct before and during these proceedings.
Speciﬁcally, he asserts that labeling his Bankruptcy
Schedules and corresponding actions as “misleading”
and a “species of fraud” was clearly erroneous. (Doc.
19).
“He who seeks to have a judgment set aside because of an erroneous ruling carries the burden of

App. 22
showing that prejudice resulted.” Palmer v. Hoffman,
318 U.S. 109, 116 (1943); see also Fed. R. Bankr. P. 9005
(adopting Fed. R. Civ. P. 61’s harmless error rule). Even
assuming the Bankruptcy Court was incorrect in its
characterizations, Appellant fails to articulate how the
error resulted in any meaningful prejudice. After all,
in the portion of the Bankruptcy Court’s order that Appellant now seeks to reverse, he was the prevailing
party. The court concluded, “[Appellant’s] sworn schedules in this case are misleading. His explanations for
the lot spit are not credible. But under Florida law, he
is nevertheless entitled to his constitutional homestead exemption.” (Doc. 11-2, p. 16).5 In the absence of
prejudice, this Court has no grounds to modify the
Bankruptcy Court’s judgment. See Flores v. Cabot
Corp., 604 F.2d 385, 386 (5th Cir. 1979) (per curiam).6
Regardless, the Bankruptcy Court’s ﬁndings were
not clearly erroneous, but rather substantiated by extensive evidence in the record. The Bankruptcy Court
supported its conclusions by enumerating Appellant’s
5

In this portion of its order, the Bankruptcy Court rejected
Appellees’ argument that Appellant’s actions warranted denial of
his entire homestead exemption. The Bankruptcy Court held that
“Florida law does not permit the outright denial of a debtor’s
homestead exemption based upon allegations of fraud, no matter
how egregious, unless funds obtained through such fraud were
then used ‘to invest in, purchase, or improve the homestead.”
(Doc. 11-2, p. 16) (quoting Havoco of Am., Ltd. v. Hill, 790 So. 2d
1018, 1028 (Fla. 2001)).
6
In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th
Cir. 1981) (en banc), the Eleventh Circuit adopted as binding
precedent all decisions of the former Fifth Circuit handed down
before October 1, 1981.

App. 23
questionable actions—speciﬁcally, Appellant’s “failure
to expressly note the acreage limitation on his Schedule C, his impermissible splitting of the Property on
the eve of his bankruptcy ﬁling, his illogical explanations for the illegal lot split, and his eleventh-hour
change in position regarding ownership of the [Unimproved Land].” (Doc. 11-2, p. 14).
Appellant contends, “There is no dispute that both
the Homestead property and the [Unimproved Land]
were accurately disclosed in [Appellant’s] Bankruptcy
Schedules; [Appellees] just don’t like how they were
disclosed.” (Doc. 19, p. 26).7 However, this argument
fails to recognize that a disclosure can be technically
true and also misleading. The Bankruptcy Court’s
lengthy discussion of Appellant’s suspect behavior supports the logical inference that his ultimate goal was
to “minimize value due [to] the estate and ‘cheat’ creditors.” (Doc. 11-2, p. 16). This ﬁnding was not clearly
erroneous.
Appellant continuously bemoans the above facts
as “red herrings” that undermined his credibility
and—by implication—befuddled the Bankruptcy Court.
(Doc. 19, pp. 27, 28, 31). However, the argument that
Appellant’s bankruptcy schedules were not misleading
is itself a distraction. The Bankruptcy Court’s discussion of Appellant’s behavior had no bearing on its actual holding: Appellant is entitled to his homestead
7

Likewise, Appellant appears to make the argument that his
disclosures cannot be characterized as misleading because no one
was actually misled. (Doc. 26, p. 27). Appellant cites no case law
to support this proposition.

App. 24
exemption as it relates to the entirety of his Property.
At best, the court’s characterization of his conduct as
“misleading” and a “species of fraud” was dicta.
Accordingly, Appellant’s hurt feelings are not an
appealable issue.
B. Whether the Bankruptcy Court applied
the correct legal standard to determine that Appellant “gerrymandered”
his homestead8
Appellant next argues that the Bankruptcy Court
did not articulate what legal standard it applied to
determine that he gerrymandered—that is, impermissibly redrew—his homestead. (Doc. 19, pp. 33-35).
Curiously, Appellant does not direct the Court to what
he believes is the correct standard or any case law in
support thereof. Instead, he attempts to distinguish
away the cases discussed by the Bankruptcy Court:
Englander v. Mills (In re Englander), 156 B.R. 862
(Bankr. M.D. Fla. 1992), aff ’d, 95 F.3d 1028 (11th Cir.
1996); and Kellogg v. Schreiber (In re Kellogg), 197 F.3d
1116 (11th Cir. 1999).
8

Gerrymandering is more frequently used in the political
arena in which the term originated. The term is used to describe
the manipulation of the geographic boundaries deﬁning an electoral district in order to favor one political party. In the homestead context, it is used to describe a debtor’s designation of his
exempt homestead within a parcel of real property that exceeds
the allowed acreage limitation, with the purpose of either concentrating value within the portion claimed as exempt or rendering
valueless that portion not claimed as exempt. (Doc. 11-2, p. 2 n.1).

App. 25
In both Englander and Kellogg, the Eleventh Circuit rejected debtors’ attempts to select half-acre portions of their properties as exempt homestead when
such divisions would violate local zoning laws. “If [a
debtor] could not lawfully divide his land into two parcels before declaring bankruptcy, he should not be allowed to use his homestead exemption to circumvent
zoning regulations.” Kellog, 197 F.3d at 1120.9 When a
debtor’s property is not divisible, the bankruptcy trustee must sell the property and the court must apportion the proceeds. Id. at 1121 (quoting Englander, 95
F.3d at 1032). Furthermore, “The status of [a debtor’s]
property is determined as of the date he ﬁled his [bankruptcy] petition.” Id. (citing In re Crump, 2 B.R. 222,
223 (Bankr. S.D. Fla. 1980)).
Appellant argues that Englander and Kellogg
are distinguishable because those cases involved disclaimed property that was “rendered worthless because the designation of the homestead did not comply
with local zoning restrictions,” whereas here the “nonexempt property has no value because it is under a
lake.” (Doc. 19, p. 35). While Appellant is correct that
this case is unique in that it involves submerged property, this detail is a paradigmatic distinction without a
difference. A careful reading of the opinions cited by
the Bankruptcy Court does not suggest that the intrinsic value of the jettisoned property holds any signiﬁcance. The Eleventh Circuit emphasized the broad
9

“When a landowner acquires the land with knowledge of
the zoning restrictions, he cannot cry ‘hardship.’ ” Id. at 1121 n.4
(quoting Josephson v. Autrey, 96 So.2d 784, 789 (Fla. 1957)).

App. 26
scope of the Englander rule by rejecting the argument
that its application was limited to cases involving “chicanery’ where “the debtor artfully crafts his homestead
to defraud his creditors by leaving a useless parcel.”
Kellogg, 197 F.3d at 1121. The relevant inquiry is
straightforward. If a debtor’s property “could not be
conveyed into smaller parcels lawfully,” then the entire
property must be considered indivisible. Additional
facts—like the debtor’s intent or the character of the
property—are immaterial.
Here, Appellant does not appear to argue that the
Property could be lawfully divided.10 Lot splits require
approval by the City of Maitland. (Doc. 11-2, p. 9). It is
uncontested that Appellant did not seek such approval.
(Id.). Furthermore, Appellant’s partitioning of the
Property violated Maitland’s zoning code because the
Unimproved Land did not conform to lot-width requirements and lacked street frontage. (Id.). It is uncontested that Appellant did not seek a variance from
these restrictions. (Id.). As was the case in Kellogg,
Appellant had not obtained a variance before filing
his petition, so the Property must be considered
10

At times, Appellant disputes the contention that he sought
to divide the Property at all. He argues that he “never intended
to do a ‘lot-split’ under the City Code. . . . The deed bifurcation
was not intended to be a designation of his 0.5-acre exempt homestead, as the Bankruptcy Court erroneously assumed.” (Doc. 19,
p. 28). However, the Bankruptcy Court heard and accepted testimony that the City of Maitland does not consider the intent of a
property owner when determining whether a particular act constitutes a lot split. (Doc. 11-2, p. 9). “Whatever [Appellant’s] intentions may have been, ‘the creation of a separate parcel did
partition the site, creating a new lot.” (Id.).

App. 27
indivisible. Therefore, the Bankruptcy Court applied
the correct legal standard and properly determined
that Appellant impermissibly gerrymandered his homestead.
C. Whether the Bankruptcy Court erred
by admitting the Appellees’ expert witness
Appellant also makes a conclusory argument that
the Bankruptcy Court “clearly erred” by admitting the
expert testimony of James R. Dyer (“Dyer”), a former
Vice President of First American Title Insurance Company (“First American”). (Doc. 19, p. 32).11 Although
framed as an attack on Dyer’s qualiﬁcations as an expert, Appellant’s brief makes no argument or cites any
authority to support this bare assertion. Instead, Appellant seemingly takes issue with the credence given
to Dyer’s testimony.
The Bankruptcy Court properly accepted Dyer as
an expert on title. A witness who is qualiﬁed by
knowledge, skill, experience, training, or education
may testify as an expert if: (1) his specialized knowledge will help the factﬁnder determine a fact in issue;
(2) the testimony is based on sufﬁcient facts or data;
(3) the testimony is the product of reliable principles
11

Appellant’s brief refers to an incorrect standard of review.
When considering a lower court’s decision to admit or exclude expert testimony, courts apply an abuse-of-discretion standard.
Kumho Tire Co., Ltd. v. Carmichael, 526 U.S. 137, 152 (1999). Regardless, the Bankruptcy Court’s admission of Dyer’s expert testimony was proper.

App. 28
and methods; and (4) the expert has reliably applied
the principles and methods to the facts of the case. Fed.
R. Evid. 702. At the time of trial, Dyer had approximately thirty-two years of experience as an underwriter and title examiner. (Doc. 11-2, p. 10). He was
regularly called upon to make determinations as to the
ownership of a speciﬁed parcel of real estate, including
whether submerged land in Florida is subject to private ownership. (Id.). Dyer testiﬁed that he located an
1875 land patent conveying the Property from the
United States to a private individual within Appellant’s chain of title. (Doc. 11166, 253:1-256:17). This
testimony was based upon a routine title search whose
methodology was not meaningfully challenged by Appellant’s brief.12 Accordingly, the Bankruptcy Court did
not abuse its discretion by admitting Dyer as an expert
witness based on his experience.
Furthermore, the Bankruptcy Court found that
Dyer’s testimony and opinions were credible, despite
minor discrepancies in the chain of title occurring prior
to the 1875 land patent. This ﬁnding was sufﬁciently
articulated and therefore was not clearly erroneous.

12

At trial, Appellant suggested that Dyer should have examined the original patent allegedly in the ﬁles of the Bureau of
Land Management, rather than the transcript on ﬁle in Orange
County, Florida. (Doc. 11-166, 297:16-24). Similarly, Appellant
suggested that Dyer should have examined the “State Tract
books,” rather than First American’s own set of “tract books.” (Id.
at 299:21-300:7). However, Appellant never produced any evidence to indicate a discrepancy between the corresponding documents.

App. 29
D. Whether the Bankruptcy Court applied
the correct legal standard in attributing the Unimproved Land to Appellant without conclusively determining
ownership
Nearly a year after initiating this bankruptcy
case, Appellant advanced the argument that the Unimproved Land cannot be included in his homestead
because it is owned by the state of Florida. “It is settled
law in this country that lands underlying navigable
waters within a state belong to the state in its sovereign capacity. . . .” United States v. Holt State Bank,
270 U.S. 49, 54 (1926). Indeed, it is an “uncontroverted
legal proposition that the State of Florida received title
to all lands beneath navigable waters . . . as an incident of sovereignty, when it became a state in 1845.”
Denson v. Stack, 997 F.2d 1356, 1360 (11th Cir. 1993)
(quoting Coastal Petroleum Co. v. Am. Cyanamid Co.,
492 So.2d 339, 342 (Fla. 1986)) (internal quotations
omitted). However, Appellant failed to produce evidence of Lake Minnehaha’s navigability. Accordingly,
the Bankruptcy Court declined to ignore the Unimproved Land’s 150-year-long chain of title and Appellant’s past and present conduct with respect to his
Property.
1. Navigability of the Lake Minnehaha
As a threshold matter, Appellant failed to establish that Lake Minnehaha was a “navigable” body of
water when Florida became a state in 1845. In Florida,
a water body is navigable if it is “used, or susceptible

App. 30
of being used, in its natural and ordinary condition as
a highway for commerce over which trade and travel
are or may be conducted in the customary modes of
trade and travel on water.” Baker v. State, 87 So.2d 497,
498 (Fla. 1956). Absent evidence of navigability, a water body should be regarded as non-navigable. Odom v.
Deltona Corp., 341 So.2d 977, 988-89 (Fla. 1976) (citing
Feig v. Graves, 100 So.2d 192, 194 (Fla. 2d DCA 1958)).
The Florida Supreme Court has held that “meandering”13 creates a rebuttable presumption of navigability. Odom, 341 So.2d at 988-89. “The logical converse
of this proposition . . . is that non-meandered lakes and
ponds are rebuttably presumed non-navigable.” Id. at
989. Appellant’s expert, Dr. Joe Knetsch,14 testiﬁed
that Lake Minnehaha was never meandered. (Doc. 11116, 396:14-16). Accordingly, Appellant had the burden
to rebut the presumption that Lake Minnehaha was
not navigable in 1845.
Appellant relied solely on the testimony of Dr.
Knetsch to establish navigability. However, Dr. Knetsch
13

A meander survey is a series of line segments drawn to
depict the sinuosities (i.e., curves) of the shorelines of navigable
water bodies. Such surveys approximate the water body’s contours, thereby permitting estimation of its acreage. C. White, A
History of the Rectangular Survey System (1983); David Guest,
The Ordinary High Water Boundary on Freshwater Lakes and
Streams: Origin, Theory, and Constitutional Restrictions, 6 Fla.
St. U. J. LAND USE & ENVTL. L. 205, 222 (1991).
14
Dr. Knetsch is a historian. He admitted that he is not qualiﬁed to render an opinion as to the title of privately owned land.
(Doc. 11-116, 393:14-394:20). He did not review the chain of title
in this case, nor did he provide an opinion on title. (Id.).

App. 31
could not offer any direct evidence of such. In fact, Dr.
Knetsch could not conclusively state that Lake Minnehaha even existed in 1845. (Doc. 11-166, 389:18400:3). The earliest documentation of the lake was an
1879 map and an 1885 photograph. (Id. at 389:18390:3). The lake was absent from earlier, more contemporaneous maps and photographs from the 1840s,
1850s, and 1860s. (Id. at 394:11-19).15 Ultimately, Dr.
Knetsch opined that Lake Minnehaha was “likely” a
navigable body of water in 1845, but this fact could not
be known for certain. (Id. at 383:11-384:7, 389:18390:3).
In sum, testimony from Appellant’s own expert
showed that Lake Minnehaha was never meandered.
This created a rebuttable presumption that the lake
was non-navigable, and therefore would not be sovereign land owned by the state of Florida. Appellant
could not produce any direct evidence—and produced
only minimal indirect evidence—to support navigability. Thus, the presumption of non-navigability and its
corollary of private ownership remain unrebutted.16

15

Dr. Knetsch noted that most maps from this period do not
detail the southern parts of the state. (Id.).
16
Appellees further argue that Fla. Stat. § 253.141 proves
that the land beneath Lake Minnehaha is privately owned because the statute expressly provides that lakes included in grants
by the United States prior to 1953 are not “navigable waters.”
Appellees presented compelling evidence that Lake Minnehaha
fits squarely within the plain text of § 253.141(2). However, this
Court—like the Bankruptcy Court—finds that delving into
the applicability of § 253.141 and conclusively determining the

App. 32
2. Chain of Title to the Unimproved Land
In declining to indulge Appellant’s attempt to toss
aside the Unimproved Land, the Bankruptcy Court
emphasized that doing so would simultaneously toss
aside “almost 150 years of record title history.” (Doc.
11-2, p. 20). Appellee’s expert identiﬁed an 1875 land
patent that conveyed a tract of land containing Lake
Minnehaha from the United States to a private individual within Appellant’s chain of title. (Doc. 11-166,
253:1-256:17).17 The land patent contained no reservation of public rights. (Id. at 255:3-5). Since 1875, title
to the Property remained undisputed. Indeed, no one
questioned the lake bottom’s private ownership until it
became clear that doing so would be in Appellant’s—
and only Appellant’s—immediate ﬁnancial interest.
To date, the state of Florida has never asserted
any interest or claim to the land beneath Lake Minnehaha. The Bankruptcy Court correctly noted that
there is no “authority that would allow it to place record title in the [Unimproved Land] into the state
against its wishes, much less without its participation.” (Doc. 11-2, p. 20). Appellant’s response to this
conclusion is to cast the state of Florida as an indispensable party and argue that the Bankruptcy Court’s

Unimproved Land’s ownership is unnecessary to resolve the present dispute.
17
“A patent is the highest evidence of title, and is conclusive
as against the Government, and all claiming under junior patents
or titles, until it is set aside or annulled by some judicial tribunal.”
United States v. Stone, 69 U.S. 525, 535 (1864).

App. 33
failure to join the state to his bankruptcy case requires
remand. (Doc. 19, pp. 24-25).
At the outset, Appellant’s contention that the
Bankruptcy Court erred by not joining the state of
Florida proves too much. In declining to make a conclusive determination of title to the Unimproved Land,
the Bankruptcy Court noted that it:
cannot ignore the effect such a ruling might
have on the interests of third parties who had
no part—or even notice—of this proceeding.
Other private owners of property on Lake
Minnehaha, the City of Maitland and its residents, and the likely cadre of mortgage creditors, all could be adversely impacted. The only
winner, it seems, would be [Appellant].
(Doc. 11-2, p. 20). If, as Appellant argues, this bankruptcy dispute required joinder of the state, then it required joinder of all of these other parties as well.
More importantly, Appellant’s argument misstates
the nature of the case and the Bankruptcy Court’s
holding. This proceeding was not and is not a quiet title
action. The Bankruptcy Court did not “believe that it
is the proper court to determine the issue of title to the
[Unimproved Land] as between [Appellant] and the
State of Florida.” (Doc. 11-2, p. 20). Accordingly, the
Bankruptcy Court reached a conclusion that adjudicated the narrow homestead issue without affecting
the rights of any other party. See Fed. R. Civ. P. 19(a)(1).
The Bankruptcy Court’s decision to view the state’s alleged interest in the land as a potential cloud on title

App. 34
neither impairs the state’s ability to assert a future
sovereign ownership claim nor exposes Appellant to
multiple or inconsistent liabilities. Id.
Appellant has always conceded that he had at
least some interest in the Unimproved Land. (Doc. 19,
pp. 11, 14, 36).18 Likewise, Appellant argues that he
never intended to divide the Property. (Id. at pp. 15, 35,
36). Therefore, the Bankruptcy Court held that, “for
the purposes of this case and in determining [Appellant’s] homestead exemption, the Court concludes that
it must assume that [Appellant] owned all of the Property as a single indivisible parcel.” (Doc. 11-2, pp. 2021). The Bankruptcy Court further reasoned that the
state’s interest—if any—in the Unimproved Land was
merely “a potential cloud on title.” (Id. at p. 20). This
Court agrees with the Bankruptcy Court’s analysis
and its ultimate conclusions.
3. Appellant’s Treatment of the Unimproved Land
Appellant’s own actions with respect to the Unimproved Land belie his protestations that he does not
own it. From 2001 until 2015, Appellant held title to
the Property as an undivided, 2.95-acre parcel. On the
eve of his bankruptcy ﬁling, Appellant attempted to
perform an illegal lot split. The Bankruptcy Court
found that Appellant’s initial explanations for doing
so were incredible, and further noted that the state’s
18

Appellant does not explain how exactly he could have an
interest in land which is wholly owned by the state.

App. 35
alleged ownership of the Unimproved Land was not
one of them. Indeed, Appellant continued to claim ownership over the entire property—albeit as two parcels—even after the lot split. As late as his Rule 2004
examination on November 14, 2015, Appellant continued to maintain that he held title to the land beneath
Lake Minnehaha. (Doc. 29-18, p. 4). Appellant did not
raise a sovereign ownership argument until July 5,
2016—nearly seven months later.
The Bankruptcy Court found that Appellant’s representations throughout these proceedings undermine
his argument that he does not own any of the lakebed.
The most notable contradiction is Appellant’s claimed
homestead exemption itself. His alleged homestead
consists of all upland property and a small portion of
beachfront and an area surrounding the dock and boathouse—that is, submerged land. (Doc. 11-2, p. 6 n.30).
The Bankruptcy Court emphasized, “[Appellant’s] partition of the Property did not use the ordinary highwater mark as the boundary line in the legal descriptions in the Warranty Deeds, rather he reserved to
the [homestead] (and therefore to himself) that small
portion of the Submerged Land that he considered
particularly valuable.” (Id.).19 The Bankruptcy Court

19

Appellant concedes that he “also included a small portion
of the submerged land” in his homestead property. (Doc. 19, p. 14
n.3). He dismisses his claimed ownership of submerged land as a
means to “protect it from Creditors attempting to interfere with
his riparian rights.” (Id.). However, elsewhere in his brief, Appellant displays an awareness that “[I]akefront property that stops
at the high water mark has the same riparian rights . . . as lots

App. 36
interpreted this inconsistency as evidence that Appellant did not truly believe that the submerged land belonged to the state of Florida. (Id. at p. 20).
Furthermore, the Bankruptcy Court noted that
Appellant’s sworn Bankruptcy Schedules list both the
Improved Land and Unimproved Land as owned by his
revocable trust. Even after adopting the novel theory
that the state owned the lakebed, Appellant never
amended his schedules to disclaim ownership. (Id.). He
explains the failure to amend as follows:
Nowhere in the Bankruptcy Schedules did
[Appellant] claim to have full, fee-simple
rights to the Submerged Land. Rather, the
Bankruptcy Schedule A form requires the
debtor to ‘list all real property in which the
debtor has any legal, equitable, or future interest. . . .” That is what [Appellant] did. He
listed the real property described in the deeds
that had been conveyed to him or his trust,
and those deeds were made ‘subject to’ all restrictions and matters of record, or other similar language.
(Doc. 34, p. 7) (internal citations omitted). This admission is entirely consistent with the Bankruptcy Court’s
decision to attribute the entire Property to Appellant
while regarding the alleged sovereign ownership as a
“potential cloud on title.” (Doc. 11-2, p. 20).

that extend into the middle of the lake.” (Id. at p. 16). Accordingly,
the Court ﬁnds Appellant’s stated explanation implausible.

App. 37
In addition to his representations in the instant
litigation, Appellant purported to own the Unimproved Land in his dealings with third parties.20 First,
when Appellant obtained a home-equity line of credit,
he represented that the property securing the loan
was the entire 2.95-acre parcel. (Doc. 11-166, 110:1623; 111:3-6). Second, Appellant paid taxes on the
Property as a single parcel. (Id. at 87:4-88:4; 108:21109:18).21 Even after the lot split, both parcels received
tax assessments for which Appellant was responsible.
(Doc. 34, pp. 9-10).22 Third, following the Bankruptcy
Court’s decision, Appellant sold the entire Property.
(Doc. 37). This Court has already taken judicial notice
of the Trustee’s Deed speciﬁcally conveying both the
20

Appellant disputes this ﬁnding. He testiﬁed that he told
“several people” that he “[doesn’t] really have any ownership below the normal high watermark.” (Doc. 11-166, 111:9-112:10).
When pressed, however, he could not identify any such individuals. (Id.). Moreover, this statement directly contradicts other testimony by Appellant. First, as discussed, he explicitly claimed
ownership of land below the high watermark. (Doc. 19, p. 14 n.3).
Second, he testiﬁed, “if somebody asked me, how big your lot is,
I’ll tell them it’s three acres.” (Doc. 11-166, 109:22-23).
21
Appellant claimed that he believed that the taxes were assessed only as to the Improved Land. The Bankruptcy Court
found this incredible, noting that Appellant’s “admitted expertise
in matters of real estate belies his assertions of ignorance.” (Doc.
11-2, p 19).
22
Appellant points out that the Orange County Property Appraiser valued the Unimproved Land at $100.00 and imposed a
property tax of $0.00. This actually weakens Appellant’s sovereign ownership argument. The Unimproved Land’s negligible tax
burden only underscores the fact that Appellant was theoretically
liable for any and all property taxes. Presumably, the state would
not appraise and assess taxes on its own property.

App. 38
Improved Land (“Parcel 1”) and the Unimproved Land
(“Parcel 2”). (Doc. 32, pp. 5-7).23
Overall, Appellant disclaimed ownership of the
Unimproved Land only after his earlier attempt to gerrymander his Property failed—and even then, only
when it suited his interests. The Bankruptcy Court
was unpersuaded by Appellant’s efforts to explain
away his shifting positions and transparent gamesmanship. This Court agrees with the Bankruptcy
Court’s refusal to “give support to [Appellant’s] blatant
and inequitable actions.” (Doc. 11-2, p. 19).24

23

The deed includes language that the transfer was made
“SUBJECT to covenants, restrictions, easements of record and
taxes for the current year.” (Doc. 32, pp. 5-7). Appellant claims
this language is broad enough to include sovereign rights and
therefore indicates that the buyers were not actually taking title
to the parcel speciﬁcally identiﬁed in the instrument. If this is
true, the Court ponders why Appellant would purport to sell the
Unimproved Land at all.
24
Appellant characterizes the Bankruptcy Court’s holding as
a punishment for perceived misconduct. (Doc. 34, p. 20). The
Court recognizes that such a practice is impermissible, see Law v.
Siegel, 571 U.S. 415 (2014), but is unpersuaded that it occurred
in this case. Regardless, assuming arguendo that the Bankruptcy
Court violated Law v. Siegel by declining to determine ownership
of the submerged land “as a matter of equity,” that was one of
several well-reasoned and legally independent justiﬁcations for
the court’s holding.

App. 39
E. Whether the Bankruptcy Court applied
the correct legal standard to allocate
the homestead sale proceeds
Appellant’s ﬁnal argument is that the Bankruptcy
Court applied an incorrect standard to allocate the
homestead sale proceeds. When a debtor claims as his
homestead a residence that sits on land exceeding the
one-half acre allowance for a municipal homestead, the
entire parcel is not exempt. See Kellogg, 197 F.3d at
1121. However, a debtor is entitled to claim any onehalf acre portion of the parcel as exempt, as long as the
remaining portion has legal and practical use. See
Englander, 95 F.3d 1032. In contrast, when a parcel
exceeds the acreage limitation and is indivisible—as
is the case here—the appropriate means by which to
honor the claimed homestead, while also providing
value to creditors, is to direct a sale and allocate the
net proceeds as between the debtor and the estate. See
id.; Kellogg, 197 F.3d at 1122. However, no Eleventh
Circuit case explains how such an allocation is to be
made.25
Appellees argued, and the Bankruptcy Court
agreed, that Florida law requires an allocation of the
net sale proceeds as a percentage of the allowed exempt acreage to the total acreage sold. Applying
this formula, Appellant is entitled to 16.9% of the net
proceeds from the sale of the Property. In contrast,
25

Appellant’s contention that the Bankruptcy Court’s allocation was “contrary to binding Eleventh Circuit precedent” is incorrect. For the reasons stated below, Appellant mischaracterizes
the holdings of Kellogg and Englander.

App. 40
Appellant’s proposed methodology for determining the
Trustee’s share would require a determination of the
value per square foot of the subject real property in its
unimproved state—thereby allowing Appellant to retain the full value of his residence—and then multiply
that value by the number of square feet by which the
Property exceeds the allowed acreage exemption.
The parties identify a single case interpreting the
Florida homestead exemption in these circumstances:
Quraeshi v. Dzikowski (In re Quareshi), 289 B.R. 240
(S.D. Fla. 2002). The Quareshi court ﬁrst noted that,
There is apparently no controlling Eleventh
Circuit case law or Florida case law dealing with explicitly whether, after sale of a
debtor’s property in which only a portion can
be claimed as homestead, the debtor’s homestead-exempt funds should be calculated as a
portion of the net proceeds of the sale (after
certain other liens have been paid) or based
upon the gross sale price of the entire property.
Id. at 244. The court then reasoned that the constitutional homestead exemption speciﬁcally excludes a
small number of debts that are connected to homestead property—for example, mortgages, real property
taxes, and repairs to improve the land. Id. Because the
homestead exemption does not shield debtors from
those particular obligations, proceeds from the sale of
an oversized and indivisible homestead should be allocated to the debtor only after such obligations have
been satisﬁed. Indeed, “only the proceeds remaining

App. 41
after those speciﬁc debts are paid qualify as homestead.” Id. The Quraeshi court concluded that, “[A]
debtor’s homestead exemption [extends] to a pro rata
portion of the net proceeds of a sale of debtor’s property,
based on his acreage share of the property sold, rather
than a pro rata portion of the gross sales price.” Id.
(emphasis added).
The Bankruptcy Court noted that, “[T]he Quraeshi
court was not faced with the precise question here, rather the court addressed the related inquiry of whether
the apportionment was to be based upon the net proceeds of the sale or the gross sale price.” (Doc. 11-2, p.
22). However, the Bankruptcy Court nonetheless concluded that Quraeshi supports the proposition that
“the proper method of allocating the net proceeds in
these circumstances should be a simple percentage of
the exempt acreage to the total acreage of the subject
property.” (Id.). This Court agrees.
Appellant makes the borderline misleading claim
that Eleventh Circuit precedent required the Bankruptcy Court to apply his preferred apportionment
method—namely, the one accepted by the Eighth Circuit in O’Brien v. Heggen, 705 F.2d 1001 (8th Cir.
1983).26 He is incorrect. The Eleventh Circuit has never
cited O’Brien as authority relating to the allocation of
sale proceeds. Indeed, the Kellogg court speciﬁed that
26

The Court notes that Appellant softened his characterization of Kellogg and Englander between his Initial Brief and his
Reply Brief. Compare (Doc. 19, pp. 54, 59) (“binding Eleventh Circuit precedent”) with (Doc. 34, p. 26) (“[T]he Eleventh Circuit has
indicated its approval of the allocation method in O’Brien.”).

App. 42
its earlier Englander opinion relied on O’Brien for the
proposition that “partition was equitable and proper
when the debtor’s homestead exceeded the amount allowed in the Florida constitution and was indivisible.”
197 F.3d at 1121. The Eleventh Circuit has never discussed, let alone adopted, the “unimproved land” valuation method utilized in O’Brien. See Englander, 95.
F.3d at 1032.27 Furthermore, not even the O’Brien opinion required the Bankruptcy Court to apply Appellant’s preferred method—the Eighth Circuit simply
held that the lower court’s apportionment was not
clearly erroneous. 705 F.2d at 1003-04.
According to Appellant, “O’Brien better approximates the result that would occur in the ordinary case
(where the nonexempt property can be sold separately)28 and is more consistent with the public policy
behind the homestead exemption.” (Doc. 19, p. 59).
However, this argument misunderstands the fundamental rationale behind the homestead exemption.
The constitutional provision reﬂects a reasoned policy
judgment that strikes a balance between the rights of
27

In Quraeshi, the district court afﬁrmatively declined to apply O’Brien, noting that, “As an initial matter, this court, in interpreting the Florida homestead provision, is hardly bound by a
case from another federal circuit interpreting the Minnesota
homestead provision and Minnesota case law from almost twenty
years ago.” 289 B.R. at 245 n.1. Among the differences between
the Florida and Minnesota homestead provisions, the current
Minnesota statute imposes a $420,000 exemption limit. Minn.
Stat. § 510.02(2).
28
Appellant produces no evidence to support his assumption
that most properties can be legally subdivided and that his case
is a rare exception.

App. 43
creditors and preservation of the family home. “The exemption is intended to protect the family home and not
to unjustly impose upon the rights of creditors.” In re
Wierschem, 152 B.R. 345, 349 (M.D. Fla. 1993) (emphasis added) (citing Hillsborough Inv. Co. v. Wilcox, 13
So.2d 448, 451 (Fla. 1943)). Where preservation of the
family home is impossible—that is, where the property
exceeds the constitutional acreage limitation and is
indivisible—the homestead exemption does not thereby
become a tool for concentrating the family home’s
value.
The Bankruptcy Court correctly observed that Appellant’s proposed method of apportionment would
“necessarily affect a windfall to a debtor while unjustly
prejudicing the rights of creditors.” (Doc. 11-2, p. 23).
Conversely, Appellant responds that the Bankruptcy
Court’s holding instead produced a windfall for his
creditors. (Doc. 34, p. 29). Notwithstanding the fact
that repayment of legitimate debts hardly constitutes
a windfall, the homestead exemption is not intended to
protect a debtor’s standard of living. (Doc. 11-2, p. 23)
(citing Smith v. Guckenheimer, 27 So. 900, 911 (Fla.
1900)). “The purpose of Florida’s homestead provision
is to protect families from destitution and want by preserving their homes.” Kellogg, 197 F.3d at 1120. Under
the Bankruptcy Court’s allocation method, Appellant
will retain approximately $289,000 as exempt homestead funds. (Doc. 29, p. 54 n.46). The Court believes
that this outcome will leave Appellant sufﬁciently protected from destitution and want.

App. 44
V.

Conclusion
For the foregoing reasons, this Court holds that:
1.

The Bankruptcy Court did not clearly err in
ﬁnding that Appellant’s actions and Bankruptcy Schedules were misleading and a species of fraud.

2.

The Bankruptcy Court applied the correct legal standard to determine that Appellant
“gerrymandered” his homestead.

3.

The Bankruptcy Court did not err by admitting the Appellees’ expert witness.

4.

The Bankruptcy Court applied the correct legal standard in attributing the Unimproved
Land to Appellant without conclusively determining ownership.

5.

The Bankruptcy Court applied the correct legal standard to allocate the homestead sale
proceeds.

Accordingly, it is ORDERED AND ADJUDGED
as follows:
1.

The ﬁnal order (Doc. 11-2) of the Bankruptcy
Court is AFFIRMED.

2.

The appeal is DISMISSED.

3.

The Clerk of Court is DIRECTED to close the
ﬁle.

App. 45
DONE AND ORDERED in Orlando, Florida, on
December 20, 2019.
/s/

Copies furnished to:
Counsel of Record
Unrepresented Parties

Paul G. Byron
PAUL G. BYRON
UNITED STATES
DISTRICT JUDGE

App. 46
ORDERED.
Dated:

April 03, 2019

[SEAL]

/s/ Cynthia C. Jackson
Cynthia C. Jackson
United States Bankruptcy Judge
UNITED STATES BANKRUPTCY COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
www.flmb.uscourts.gov
In re:
Case No.
6:15-bk-06458-CCJ

WILLIAM W. COLE, JR.,
Debtor.

/

MEMORANDUM DECISION SUSTAINING,
IN PART, OBJECTIONS TO DEBTOR’S
CLAIM OF EXEMPTION
(Homestead Exemption)
This case came before the Court for a two-day trial
on Creditors PRN Real Estate & Investments, Ltd. and
Nancy A. Rossman’s (collectively “PRN”) Objection to
Debtor’s Claimed Homestead Exemption (Doc. No. 104)
(“PRN’s Objection”) and Chapter 7 Trustee Lori Patton’s (the “Trustee”) Objection to Debtor’s Claim of
Homestead Exemption (Doc. No. 116) (“Trustee’s Objection”) (together, the “Objections”). After considering
the evidence admitted at trial and the governing case
law, the Court concludes that the Objections should be
sustained in part. Debtor William W. Cole, Jr. (“Debtor”
or “Mr. Cole”) will not be denied his homestead

App. 47
exemption outright. But Mr. Cole’s exemption must be
limited to a half of an acre out of a total of 2.95 acres.
Jurisdiction
This Court has jurisdiction over this proceeding
under 28 U.S.C. §§ 157 and 1334(b). This is a core proceeding under 28 U.S.C. § 157(b)(2)(B).
The Real Property
The real property at issue in this matter is located
at 608 Bentley Lane, Maitland, Florida, 32751 (the
“Property”). The Debtor owns the Property under a
revocable self-settled trust. Joint Pretrial Statement
(hereafter “Jnt. Stip.”) ¶¶ 2–8. (Doc. No. 373). The
Property is located within the City of Maitland, Florida
and consists of approximately 2.95 acres, which sits
upon and extends into Lake Minnehaha. Jnt. Stip.
¶¶ 9, 16. The Court will refer to the approximate .765
acres of the parcel that is above the ordinary high water mark and upon which Debtor’s 10,000 square foot
home is located as the “Upland Property.” The Court
will refer to the remaining 2.185 acres of the parcel
that is below the ordinary high water mark and which
extends into Lake Minnehaha as the “Submerged
Land.” See Jnt. Stip. ¶ 9.

App. 48
Issues for Decision
1. Whether the Debtor’s homestead exemption
should be denied outright because of the Debtor’s prepetition efforts to “gerrymander” the exemption.1
2. If the Debtor is entitled to claim a homestead
exemption at all, (a) whether the Submerged Land
should be considered in determining the total acreage
of the Debtor’s homestead and (b) the proper method
of allocating value to the homestead exemption.2

1

Gerrymandering is more frequently used in the political
arena in which the term originated. The term is used to describe
the manipulation of the geographic boundaries deﬁning an electoral district in order to favor one political party. In the homestead context, it is used to describe a debtor’s designation of his
exempt homestead within a parcel of real property that exceeds
the allowed acreage limitation, with the purpose of either concentrating value within the portion claimed as exempt or rendering
valueless that portion not claimed as exempt.
2
Since trial, the Court entered an order upon joint motion of
the Trustee and the Debtor authorizing the sale of the Property
subject to speciﬁed terms and conditions. (Doc. No. 632). Accordingly, the Court need not address the issue of whether the Court
may order a sale of the Property. Debtor acknowledges that the
law in this circuit allows the sale by a bankruptcy trustee of partially-exempt property that is indivisible for purposes of liquidating the estate’s interest in the property. However, he suggests
that the Supreme Court’s holding in Law v. Siegel, 571 U.S. 415
(2014), might alter the law in this circuit as to the forced sale of a
homestead. The Court respectfully disagrees as Siegel is distinguishable. First, a sale in this case would not be directed as a
sanction for alleged misconduct. Second, and more importantly,
the Court would not need to invoke § 105(a) of the Bankruptcy
Code or its inherent power to order the sale as Florida law, which
governs the claim of exemption, permits a forced sale in these

App. 49
Governing Standards
The procedures for claiming any property as exempt and for the resolution of any objection to the exemption are governed by Rule 4003 of the Federal
Rules of Bankruptcy Procedure (“Rule(s)”). Because a
debtor’s claim of exemption is presumptively valid under 11 U.S.C. § 522(1),3 the party objecting to a claimed
exemption bears the burden to show that the exemption is not properly claimed. Rule 4003(c); see, e.g., Silliman v. Cassell (In re Cassell), 688 F.3d 1291, 1294
(11th Cir. 2012); In re Gentry, 459 B.R. 861, 863 (Bankr.
M.D. Fla. 2011).
At issue here is the Debtor’s claim of exemption in
his homestead, asserted under Article X § 4 of the Florida Constitution, which provides in part:
(a) There shall be exempt from forced sale
under process of any court, and no judgment,
decree or execution shall be a lien thereon except for the payment of taxes and assessments
thereon, obligations contracted for the purchase, improvement or repair thereof, or obligations contracted for the house, ﬁeld or other
labor performed on the realty, the following
property owned by a natural person:
(1) a homestead . . . if located within a
municipality, to the extent of one-half acre of

circumstances. See Kellogg v. Schreiber (In re Kellogg), 197 F.3d
1116 (11th Cir. 1999).
3
References are to 11 U.S.C. §§ 101–1532 (“Code” or “Bankruptcy Code”), unless indicated otherwise.

App. 50
contiguous land, upon which the exemption
shall be limited to the residence of the owner
or his family.
This exemption from forced sale is “designed to protect
and preserve the family home.”4 It is often said that,
“[a]s a matter of public policy, the Florida homestead
exemption should be liberally construed in favor of the
party seeking the exemption.”5 At the same time, a
court should not construe the exemption “so liberally
that they become ‘instruments of fraud, an imposition
on creditors, or a means to escape honest debts.’ ”6
The relevant date for determining whether a
debtor is entitled to a claim of exemption is the petition
date.7

4

In re Ballato, 318 B.R. 205, 209 (Bankr. M.D. Fla. 2004);
See also Englander v. Mills (In re Englander), 95 F.3d 1028, 1031
(11th Cir. 1996) (“Florida case law dictates that the homestead
exemption laws be liberally applied to the end that the family
shall have shelter and shall not be reduced to absolute destitution.”).
5
In re Aloisi, 261 B.R. 504, 511 (Bankr. M.D. Fla. 2001).
6
Kellogg v. Schreiber (In re Kellogg), 197 F.3d 1116, 1120
(11th Cir. 1999) (quoting Frase v. Branch, 362 So. 2d 317, 318
(Fla. Dist. Ct. App. 1978)).
7
See In re Williams, 427 B.R. 541, 547 (Bankr. M.D. Fla.
2010); In re Vick, No. 07-10844-BKC-AJC, 2008 WL 2444526, at
*2 (Bankr. S.D. Fla. June 16, 2008) (listing cases).

App. 51
FINDINGS OF FACT8
A. Debtor’s Prepetition Acts and Statements as to the
Property
Mr. Cole acquired the Property in 2001.9 He and
his wife Terre Cole moved onto the Property in 2002 or
2003, after construction of the residence.10 Except for a
period between May 2009 and November 2014, Mr.
Cole has lived on the Property since he acquired it. At
all relevant times, either Mr. Cole or his family have
resided on the Property.11
Mr. Cole holds title to the Property under a selfsettled revocable trust, which held title to the Property—as a single intact parcel—in a series of deeds until approximately three months prior to the petition
date.12 In May 2015, Mr. and Mrs. Cole, as co-trustees,
executed and recorded a special warranty deed conveying—from the trust to the trust—the Property less the
Upland Property and a small portion of the Submerged
Land containing, primarily, a dock and boathouse.13 In
June 2015, Mr. and Mrs. Cole executed and recorded a
second special warranty deed to correct an error in the
8

PRN’s Exhibits (Doc. Nos. 367, 382, and 397) shall be noted
as “Cr. Ex.” or “Cr. Am. Ex.” Debtor’s Exhibits (Doc. No. 369) shall
be noted at “D. Ex.” References to the trial transcript shall be
noted as “Tr.” (Doc. No. 416).
9
Tr. 73:5–7, 131:1–3; Jnt. Stip. ¶ 7.
10
Jnt. Stip. ¶ 15.
11
Jnt. Stip. ¶¶ 3, 17, 18.
12
Jnt. Stip. ¶ 7; Tr. 72:10–17; Cr. Exs. 4Z–4CC; Cr. Am. Ex.
10.
13
Cr. Exs. 4DD and 15; Tr. 93:5–20.

App. 52
May deed. The June deed conveyed the Submerged
Land less the same small portion of the beachfront and
the area surrounding the dock and boathouse, again
from the trust to the trust.14 The Submerged Land does
not front a road and is accessible only by water.15
Mr. Cole designated the boundary line used to split
the Property. In late January 2015, Mr. Cole emailed
Kevin Cavone, a surveyor, a copy of an old survey of the
Property and asked that Mr. Cavone “have [it] broken
out into two surveys.”16 Mr. Cavone’s surveys were used
to prepare the legal descriptions in the May and June
2015 special warranty deeds.17
At various times, Mr. and Mrs. Cole have listed the
Property for sale.18 When listed, the Multiple Listing
Service listing described the property for sale as 2.95
acres.19
In May 2009, Mr. and Mrs. Cole executed an “Afﬁdavit of Trustee” in conjunction with a request for Fidelity National Title Insurance Company to issue a
title insurance policy on the Property. The afﬁdavit
provides a legal description consisting of the entire
Property and states the Property is the “homestead
property” of the trust’s settlor (Mr. Cole) or his family.
14
15
16
17
18
19

Cr. Exs. 4EE; Tr. 96:3–13.
Jnt. Stip. ¶ 20.
Cr. Am. Ex. 10; Jnt. Stip. ¶ 19.
Tr. 95:23–96:2.
Jnt. Stip. ¶ 21; Tr. 78:11–81:25.
Tr. 81:16–84:11; Cr. Ex. 9.

App. 53
No reference is made to a potential interest held by the
State of Florida to the Submerged Land.20
Mr. Cole has paid the real property taxes assessed
against the Property since acquiring it through the petition date. The Property is taxed as a single parcel.21
In a November 2013 email to Mr. Cole, Mrs. Cole questioned whether they were paying inﬂated real estate
taxes based upon the tax rolls listing the Property at
2.9 acres. Mr. Cole responded: “We are not overpaying.
It shows it is on the water.”22
B. Debtor’s Schedules
Mr. Cole ﬁled this chapter 7 case on July 27,
2015.23 His sworn schedules were timely ﬁled on August 10, 2015.24 To date, Mr. Cole has never amended
his schedules.
Schedule A lists two parcels of real property. First,
“608 Bentley Lane, Maitland, Florida 32751”, in which
Mr. Cole claimed ownership via the trust and homestead status. Mr. Cole estimates the value of this parcel
at $2.5 million. Second, a parcel in Orange County described in an attached exhibit, “A-1”, in which Mr. Cole
again claimed ownership under the trust but no homestead status. Mr. Cole estimates the value of this parcel
20
21
22
23
24

Cr. Ex. 13 and Ex. 13 ¶¶ 3–5; Tr. 76:8–78:8.
Tr. 85:4–86:4; Cr. Ex. 8.
Cr. Ex. 11; Tr. 86:18–87:7.
D. Ex. 1; Jnt. Stip. ¶ 1.
D. Ex. 2; Jnt. Stip. ¶ 4.

App. 54
at $1,000. Exhibit A-1 contains a legal description
which is identical to the legal description contained in
the June 2015 special warranty deed.25
Schedule C claims the “608 Bentley Lane, Maitland, Florida 32751” parcel as exempt pursuant to Article X § 4(a)(1) of the Florida Constitution. Mr. Cole
claims the “Full Value” as exempt, which, consistent
with his Schedule A, is estimated at $2.5 million.26
Neither Schedule A, including Exhibit A-1, nor
Schedule C make any reference to the size of the parcels.27 Nor do they indicate that the parcels are contiguous.
C. Debtor’s Rule 2004 Examination Testimony Regarding the Splitting of the Property
Asked to explain the reason for executing the May
and June 2015 special warranty deeds (together, the
“Warranty Deeds”), Mr. Cole testiﬁed in his 2004 exam
that it was “just to call out what was useable land and
what was unusable land.”28 He added that there was
also some concern about potential liability given that
a water ski course laid within the waters over the Submerged Land. This threat of liability notwithstanding,
25

D. Ex. 2; Cr. Ex. 4EE; Tr. 96:9–13.
D. Ex. 2.
27
Notwithstanding the lack of speciﬁcity in his Schedule C,
Mr. Cole acknowledges that his claim of exemption is limited to
one-half acre. Jnt. Stip. ¶ 14.
28
Cr. Am. Ex. 12, Transcript of Mr. Cole’s 2004 Exam (“2004
Exam”) 20:9–12.
26

App. 55
Mr. Cole acknowledged that the Warranty Deeds did
not change the ownership of the Property.29
As to the lake parcel identiﬁed in Exhibit A-1 of
his Schedule A,30 Mr. Cole admitted that the parcel was
not accessible by land and did not front a road.31 He
evaded labeling the Submerged Land as unmarketable
yet acknowledged it “[w]ouldn’t have any value to
me.”32 Asked, hypothetically, if he would ever sell the
Submerged Land apart from the Upland Property, Mr.
Cole testiﬁed: “Not without some compelling reason.”33
Mr. Cole ﬁrst stated that he believed that the City
of Maitland would not care if he tried to sell the Submerged Land separately from the Upland Property.
But he quickly qualiﬁed this statement, noting that
the City had cared (and disallowed it) when he had
shortly before requested to split a lot on the opposite
side of Lake Minnehaha. Mr. Cole further claimed that
29

Cr. Am. Ex. 12, 2004 Exam 20:15–24.
As noted above, the lake parcel created by the June 2015
special warranty deed and described in Exhibit A-1 to Schedule A
consists of the submerged land below the ordinary high water
mark less a small portion of beachfront and an area surrounding
the dock and boathouse. The Court nevertheless, for ease of analysis, refers to this parcel as the Submerged Land. The Court adds
this note to make clear that Debtor’s partition of the Property did
not use the ordinary high water mark as the boundary line in the
legal descriptions in the Warranty Deeds, rather he reserved to
the Upland Property (and therefore to himself ) that small portion
of the Submerged Land that he considered particularly valuable.
31
Cr. Am. Ex. 12, 2004 Exam 117:1–6.
32
Cr. Am. Ex. 12, 2004 Exam 117:7–10.
33
Cr. Am. Ex. 12, 2004 Exam 117:16–18.
30

App. 56
at one point, the City had suggested he deed the submerged lands to the State of Florida. He could provide
no details of this claim, other than to say that the matter “came up” at a zoning hearing.34
D. Testimony Adduced at Trial
1. Debtor William W. Cole, Jr.
Debtor, who holds a bachelor’s in accounting from
the University of Florida, has been a real estate investor and developer for more than twenty years. Mr. Cole
has experience reviewing real estate documents such
as surveys, tax maps, title commitments, and title insurance policies.35
Mr. Cole identiﬁed several errors in his bankruptcy schedules and initial disclosures. But he indicated no errors on his Schedule A or C.36 Mr. Cole
acknowledged that by recording the Warranty Deeds,
he warranted “to the world” that the trust owned the
Property and more speciﬁcally, the Submerged Land.
The Warranty Deeds contain no indication that the
trust lacked any interest or right in the Property or
that the Property was held in any lessor capacity other
than as full title owner.37

34

Cr. Am. Ex. 12, 2004 Exam 117:19–118:25.
Tr. 66:14–67:15.
36
Tr. 70:3–71:12; see Tr. 127:6–12 (stating there were no inaccuracies on Schedule A except for “possibly overstating the values”).
37
Tr. 72:18–73:4.
35

App. 57
As to real estate taxes, Mr. Cole claimed that he
believed that the taxes were assessed only as to the
Upland Property. But he acknowledged that the Property was taxed as a single parcel.38
Mr. Cole attended a mediation of his dispute with
PRN on January 26, 2015. The mediation resulted in
an impasse. Two days later, Mr. Cole sent the email to
Mr. Cavone requesting the old survey of the Property
be divided in two.39 At trial, Mr. Cole explained his
email and the “unusual request” it contained as follows:
Because I was trying to identify since the mediation didn’t go well, I wasn’t quite sure what
was going to happen, I still hoped we were going to settle, but began a process of identifying
what I considered to be my homestead parcel.40
Mr. Cole admitted that he directed Mr. Cavone to use a
boundary line other than ordinary high water mark because he wanted to ensure his boathouse was protected.41 Mr. Cole discounted the suggestion that his
request to divide the survey was made solely for purposes of “pre-bankruptcy planning.” But he did
acknowledge that bankruptcy might have been one of
the reasons.42
38
39
40
41
42

Tr. 85:25–86:4, 105:21–106:18.
Tr. 88:22–89:5, 90:3–7.
Tr. 91:11–18.
Tr. 93:5–20.
Tr. 93:21–94:3; see also Tr. 115:14–22.

App. 58
Regarding the splitting of the Property, Mr. Cole
claimed he did not intend to create a second lot and
denied that he did so pursuant to the City’s code.43 He
admitted that he did not obtain any type of approval
from the City before executing the Warranty Deeds.44
And in contrast to his Rule 2004 testimony, Mr. Cole
admitted that the Submerged Land, by itself, was not
marketable.45 Mr. Cole characterized his execution of
the Warranty Deeds as a “bifurcation of a deed.”46 Despite his experience obtaining a variance in order to
split similar parcels, he did not seek a variance in regard to the Property because “[he] didn’t think it was
necessary.”47
Mr. Cole acknowledged that he made no claim that
the State of Florida owned the Submerged Land at his
Rule 2004 examination.48 He also acknowledged that
in executing the Warranty Deeds, he deeded the land,
effectively, back to himself rather than to the State of
Florida.49 These acknowledgments notwithstanding,
Mr. Cole stated that his claim that the state owned the
Submerged Land was not newly invented, but rather
he had shared his belief with “several people.” The only

43
44
45
46
47
48
49

Tr. 92:22–93:4, 97:14–17.
Tr. 96:19–22.
Tr. 97:2–4.
Tr. 97:23–98:15.
Tr. 99:16–100:1
Tr. 103:15–104:7.
Tr. 106:24–107:4.

App. 59
individual he could speciﬁcally identify, however, was
counsel.50
Mr. Cole pointed to the sovereignty exception in
his title insurance policy for the Property as the basis
of his belief that the state owned the Submerged
Land.51 Though he acknowledged he could have asked
to have the exception removed, he did not do so because, in his experience as a developer, title insurance
companies would not remove such an exception.52 Mr.
Cole could not say if in those prior cases where an insurer denied his request to remove a sovereignty exception, there was, as here, a patent out of the United
States without a reservation of rights involved.53
2. Sara Blanchard, Chief Planner, City of Maitland
Ms. Blanchard, who holds a master’s degree in Urban and Regional Studies, has been employed by the
City of Maitland for thirty-two years. Ms. Blanchard is
currently the City’s Chief Planner and has served also
as a planner, zoning administrator, and senior planner.
In her current position, Ms. Blanchard oversees land
development and growth management issues for the
City, including reviewing proposed construction projects. She drafts ordinances related to these issues and

50
51
52
53

Tr. 109:9–110:23.
Tr. 133:5–135:2, 148:6–14; see D. Ex. 3.
Tr. 107:10–108:2.
Tr. 156:18–157:8.

App. 60
is the representative to the City’s planning and zoning
commission.54
Ms. Blanchard testiﬁed that where a property
owner attempts to divide a single parcel of real estate
into two, the City refers to this partitioning as a “lot
split.” The City’s code requires that a lot split be approved by the City, except where the lot split involves
a transfer of small portions of land between adjoining
property owners.55 There is a varying degree of process
involved in obtaining the City’s approval. Once approved, the property may be split and recorded in the
public records.56
As part of her regular duties, Ms. Blanchard is involved in the review of proposed lot splits. In this regard, Ms. Blanchard is responsible for ensuring that a
proposed lot split is consistent with the requirements
of the City’s code and determining whether a variance
is needed.57 She is also responsible for preparing “zoning conﬁrmation letters,” which are letters that put
forth the City’s position on questions posed in matters
effecting the zoning of real property within the City.58
Two zoning conﬁrmation letters authored by Ms.
Blanchard, one dated May 5, 2016, and addressed to
PRN’s counsel and a second dated August 12, 2016,

54
55
56
57
58

Tr. 169:4–171:15.
Tr. 171:20–172:17.
Tr. 172:18–173:5.
Tr. 173:6–17.
Tr. 175:6–176:16.

App. 61
and addressed to Debtor’s counsel, were admitted at
trial.59
Consistent with her May 5 letter, Ms. Blanchard
testiﬁed that Debtor’s splitting of the Property would
have required City approval.60 Debtor did not seek the
City’s approval before executing and recording the
Warranty Deeds, nor had the City taken any step in
any process that might lead to granting its approval.61
Ms. Blanchard testiﬁed that Debtor’s partitioning of
the Property did not conform with the City code’s lot
width requirements and, therefore, a variance would
be needed.62 It is undisputed that Debtor did not apply
for a variance.63 At a minimum, Debtor’s splitting of
the Property violated Section 21-6 of the City’s zoning
code because of the failure to adhere to lot width requirements.64 The Submerged Land speciﬁcally failed
to comply with applicable lot width requirements because it lacked any street frontage.65
Ms. Blanchard testiﬁed that the intent of a property owner is not considered in determining whether a
particular act constitutes a lot split.66 Whatever Mr.
59

Cr. Ex. 24 (May 5, 2016 letter to Mr. Elkins) and Cr. Ex.
39 (Aug. 12, 2016 letter to Mr. Herron).
60
Tr. 177:23–25.
61
Tr. 178:4–18.
62
Tr. 178:19–24.
63
Tr. 179:24–180:3.
64
Tr. 179:2–20; see Cr. Ex. 24 (suggesting Debtor’s actions
also violated Section 7.5–90 and Section 16–44).
65
Tr. 193:4–16; see also Tr. 179:2–8, 185:8–11.
66
Tr. 180:9–12.

App. 62
Cole’s intentions may have been, “the creation of a separate parcel did partition the site, creating a new lot.”67
3. James R. Dyer, Vice President, First American Title
Mr. Dyer, a Vice President with First American
Title, has been employed as an underwriter and title
examiner for about 32 years. He is certiﬁed as a land
searcher by the Florida Land Title Association and is
licensed to sign title policies and commitments.68 Mr.
Dyer is regularly called upon to make determinations
as to the ownership of a speciﬁed parcel of real estate,
primarily for the purpose of risk assessment. His experience includes determinations of whether submerged
land in Florida is subject to private ownership. Mr.
Dyer has never had one of his title determinations rejected by a court of law.69 The court accepts Mr. Dyer as
an expert on title.
As to the Submerged Land, Mr. Dyer opined that
the parcel was owned by Mr. and Mrs. Cole as co-trustees of the trust and not by the State of Florida.70 His
opinion is based upon a chain of title going back to an
indenture dated June 4, 1873, between Robert C. Parton, as grantor, and Richard H. Marks, as grantee.71
67

Cr. Ex. 39.
Tr. 207:6–210:17.
69
Tr. 210:20–25, 213:8–214:1, 214:21–24.
70
Tr. 237:11–238:22, 267:3–14.
71
Tr. 238:23–239:19, 240:11–242:9, 256:12–14; see Cr. Exs.
4A–4EE (less Ex. 4Y).
68

App. 63
The gap period between 1845, when Florida became a
state, and 1873 was not a concern for Mr. Dyer because,
within the chain of title, he located a patent from the
United States to Mr. Parton, which did not contain a
reservation of rights.72 And under Section 253.141(2),
Florida Statutes, because there was a patent from the
United States to a private individual, the Submerged
Land would not be sovereign land owned by the State
of Florida.
Mr. Dyer explained that a sovereignty exception,
like the one in Mr. Cole’s title policy, is standard practice when a parcel includes lands submerged beneath
a water body. As true with any title exception, however,
a sovereignty exception may be removed from a policy
(although it is rare) if removal is requested and supported by the research into the chain of title.73 When
asked to remove a sovereignty exception, Mr. Dyer
searches the land records for a deed out of either the
United States or the State of Florida.74 Mr. Dyer opined
that based upon his review of the chain of title for the
Property, had he been writing Mr. Cole’s title policy and
been asked to remove the sovereignty exception, he
would have done so.75

72

Tr. 242:10–25, 245:1–20, 254:3–5, 256:19–23, 257:10–
259:18; see Cr. Ex. 4D.
73
Tr. 229:24–231:9.
74
Tr. 235:22–236:3.
75
Tr. 269:10–270:4, 270:14–21.

App. 64
4. Joe Knetsch, Ph.D.
Now retired, Dr. Knetsch served for 28 years as a
historian for Florida’s Division of State Lands. His primary task was researching whether water bodies in
the state were navigable at the time Florida became a
state for purposes of determining whether the land
underneath was owned by the State of Florida.76 Dr.
Knetsch has authored several books and numerous articles on topics in Florida history, including the history
of surveying in Florida, the history of the public trust
doctrine, and the Seminole wars.77 The court accepts
Dr. Knetsch as an expert in Florida history.
In researching whether Lake Minnehaha, and
other water bodies more generally, was navigable in
1845, Dr. Knetsch stated there was not a wealth of witness accounts to rely on because Florida was not well
developed at the time it became a state. He therefore
examined other matters such as map history, surveys,
and surveyor ﬁeld notes. He also looked at military records, basically “whatever might apply to showing the
existence or nonexistence of a water body.”78 And from
there, he examined whether the water body was used
“in the customary use of the day.” Customary use might
include activities ranging from recreation to commerce.79

76
77
78
79

Tr. 337:11–24, 339:17–22.
Tr. 338:6–15, 340:7–343:7; see D. Ex. 5.
Tr. 352:20–353:19.
Tr. 380:17–381:10.

App. 65
The earliest evidence of navigability of Lake Minnehaha that Dr. Knetsch located was a 1879 map of
Orange County, issued by surveyor E.R. Trafford.80
Later maps also reﬂect the existence of the lake.81 Dr.
Knetsch discovered no historical evidence that Lake
Minnehaha, nor any of the lakes in the same chain,
ever disappeared and later reappeared as has occurred
with several other lakes in different parts of the state.82
Most maps of the period between 1840 to 1860 do
not detail the southern part of the state. Dr. Knetsch
owns copies of several.83 Of the well-known maps of the
period, none show Lake Minnehaha.84 But Dr. Knetsch
cautioned, “they don’t show a lot of others.”85
Other evidence of Lake Minnehaha’s navigability
included photographs obtained from the state archives
taken around 1885 depicting a boat on Lake Minnehaha,86
the Chronological History of Winter Park, Florida published in 1950, which describes boats traveling the various canals and lakes in the area,87 a book published in
1972 about historic homes in Maitland describing a
“majestic boathouse” at one home on the east side of
Lake Minnehaha which was described as a social scene
80
81
82
83
84
85
86
87

Tr. 356:3–7, 358:1–9, 381:18–21; see D. Ex. 7.
Tr. 359:17–360:18, 363:6–21, 364:18–24; see D. Exs. 8 and 9.
Tr. 364:25–369:11.
Tr. 392:11–22.
Tr. 412:10–413:1; see also Tr. 392:11–22.
Tr. 412:25–413:1.
Tr. 369:14–371:11; see D Ex. 10.
Tr. 371:23–373:15; see D Ex. 11.

App. 66
in the early 1900s,88 and a 2011 book discussing canal
tourism in the area in 1937.89 Dr. Knetsch acknowledged,
however, that the canals connecting the lakes in Lake
Minnehaha’s chain did not exist in 1845 and were constructed in the 1890s to facilitate the logging industry.90
Dr. Knetsch also examined the ﬁeld notes of surveyors of the time. He noted that in 1845, the majority
of Florida had not been surveyed.91 Dr. Knetsch examined one particular survey performed by Henry Washington in 1843. The survey does not mention Lake
Minnehaha, however, this was not unexpected as the
lake did not cross the lines Washington was directed to
survey. But Washington’s ﬁeld notes reﬂect a marsh extending in the lake’s direction. Dr. Knetsch conceded
that Lake Minnehaha was never meandered.92 And as
he further acknowledged, it is the law in the State of
Florida, that a non-meandered lake is presumably
non-navigable and therefore would not be sovereign
land owned by the State of Florida.
To his knowledge, the State of Florida has not asserted an ownership claim to the lake.93
Based upon the sum of his research and experience, Dr. Knetsch opined that Lake Minnehaha was
likely a navigable water way in 1845 when Florida
88
89
90
91
92
93

Tr. 373:17–374:12; see D Ex. 13.
Tr. 374:19–375:7; see D Ex. 12.
Tr. 383:16–384:2.
Tr. 376:2–5, 376:25–377:1.
Tr. 393:4–394:16, 397:8–398:19, 406:2–8, 418:14–419:21.
Tr. 394:24–395:1, 398:23–399:5.

App. 67
became a state.94 Accordingly, he offered that any submerged land below the ordinary high water mark would
be sovereign land owned by the state.95 He acknowledged, however, that based on the available historical
record, it cannot be known for certain whether Lake
Minnehaha either existed or was navigable in 1845.96
CONCLUSIONS OF LAW
I.

Debtor’s Entitlement to a Homestead Exemption97
(a)

Arguments of the Parties

PRN (but not the Trustee) asks the Court to deny
Mr. Cole his homestead exemption in its entirety based
94

Tr. 381:11–382:7.
Tr. 376:16–20, 377:16–378:3, 380:8–16.
96
Tr. 387:18–388:3.
97
PRN also has argued that the Court should impose an equitable lien in its favor against Debtor’s homestead. But PRN has not
provided any binding (or persuasive) authority for that proposition
on these facts. True, a court is not wholly without authority to impose an equitable lien against a homestead based on a theory of
unjust enrichment. E.g. Palm Beach Sav. & Loan Ass’n v. Fishbein,
619 So. 2d. 267 (Fla. 1993). However, that particular remedy is
available only in the rarest of circumstances, circumstances that
do not exist here because there is no evidence that PRN provided
value that Debtor used to benefit his homestead. Havoco of Am.,
Ltd. v. Hill, 790 So. 2d 1018 (Fla. 2001). Here, it is clear that PRN
is a creditor, if at all, based upon PRN’s breach of contract and
fraud claims, which are unrelated to Debtor’s homestead. Cf. Flinn
v. Doty, 214 So. 3d 683 (Fla. Dist. Ct. App. 2017) (upholding equitable lien where appellant used alleged ill-gotten funds to pay off a
mortgage on her homestead and rejecting imposition of a second
equitable lien where alleged ill-gotten funds were not used to satisfy any pre-existing obligation on the home).
95

App. 68
upon his prepetition split of the Property into the Upland Property and the Submerged Land. PRN asserts
that this was an impermissible (and fraudulent) attempt to gerrymander his homestead exemption at the
expense of his creditors. In support of its argument,
PRN relies on In re Englander, 156 B.R. 862 (Bankr.
M.D. Fla. 1992), aff ’d, 95 F.3d 1028 (11th Cir. 1996).98
Debtor responds that an outright denial of his
homestead exemption based upon his prepetition conduct is not only contrary to the policies underlying the
exemption but also unsupported by law. Debtor argues
that based upon Law v. Siegel, 571 U.S. 415 (2014),
and Havoco of Am., Ltd. v. Hill, 790 So. 2d 1018 (Fla.
2001),99 neither gerrymandering nor any other type
of “pre-bankruptcy planning” provides a basis for a

98

PRN also cites Isaacson v. Isaacson, 504 So. 2d. 1309 (Fla.
Dist. Ct. App. 1987). However, Isaacson does not stand for the
proposition that a homestead exemption may be denied in its entirety as a result of “reprehensible conduct” of the debtor. Rather,
the court stated that an equitable lien may be imposed against
homestead property under certain circumstances and then, notably, reversed the imposition of an equitable lien in favor of a child
support creditor. Isaacson was decided before Havoco, 790 So. 2d
1018. And in Havoco, the Florida Supreme Court rejected the contention that in addition to the three express exceptions provided
in the Florida Constitution, the court had created an unexpressed
fourth homestead exception based upon fraud through its equitable lien jurisprudence.
99
Havoco, 790 So. 2d 1018 (Fla. 2001), arose on certiﬁed
question from the Eleventh Circuit. See Havoco of Am., Ltd. v.
Hill, 255 F.3d 1321 (11th Cir. 2001) (opinion after certiﬁed question answered).

App. 69
bankruptcy court to deny an otherwise properly
claimed homestead exemption.
(b)

Analysis

Under the Florida Constitution, the Debtor’s
homestead exemption is limited to one-half acre because the Property lies within the City of Maitland.
Debtor timely claimed the exemption on his Schedule
C, albeit limited to the Upland Property. Accordingly,
Debtor’s homestead claim is presumptively valid. 11
U.S.C. § 522(1).
PRN argues that the Court should reject the claim
of exemption outright due, essentially, to fraud. In support of its argument, PRN cites to the Debtor’s failure
to expressly note the acreage limitation on his Schedule C, his impermissible splitting of the Property on
the eve of the bankruptcy ﬁling, his illogical explanations for the illegal lot split, and his eleventh-hour
change in position regarding the ownership of the Submerged Land. PRN analogizes Mr. Cole’s conduct to the
debtors’ conduct in In re Englander. And PRN notes
that the bankruptcy court in that case stated that
debtors might have suffered a “total denial” of their
homestead exemption had the issue not been one of
ﬁrst impression.100
The facts in In re Englander are similar to the
facts at issue here. In that case, the debtors lived on
just over an acre of lakefront property in the City of
100

In re Englander, 156 B.R. at 871.

App. 70
Winter Park, Florida, a neighbor of Maitland. The
Englanders attempted to gerrymander their exemption by designating as exempt a one-half acre plot containing the residence, which encircled the rest of the
parcel. The property the debtors designated as nonhomestead was useless, with no access to roads, utilities, or lakefront.101 After concluding that the property
at issue could not be so divided, the Court ordered a
sale of the property and the apportionment of the proceeds as between debtors and the bankruptcy estate,
noting:
The misleading and fraudulent actions [of
the debtors in gerrymandering the property]
could have resulted in a total denial of the
debtors right to claim a homestead exemption
in his residence. However since the issues in
this case had not been directly addressed by
a Court construing Florida law before today
. . . , this Court believes that total elimination
of his homestead is too severe a punishment
and holds that these debtors should be allowed to claim a fair share of the proceeds
from the sale of their residence.102
The bankruptcy court’s suggestion that a homestead exemption might be denied in its entirety was
dicta and was not adopted by the Eleventh Circuit on
appeal. Rather, the Eleventh Circuit focused on and ultimately endorsed the bankruptcy court’s “equitable
solution” to the problem of how to honor a debtor’s
101
102

Id. at 863–64.
Id. at 871.

App. 71
homestead exemption when the property claimed as
exempt exceeds the acreage limitation in the Florida
Constitution and is indivisible.103 The Eleventh Circuit
did not mention the bankruptcy court’s ﬁnding that the
Englanders had claimed their homestead exemption in
bad faith, nor did it discuss exceptions to the homestead exemption more generally.104
PRN has not identiﬁed any post-Englander case
where a debtor was denied the homestead exemption
outright because the court found the debtor had gerrymandered the exemption. And importantly, since the
Englander decision, the Eleventh Circuit has issued its
decision in Havoco, which forecloses PRN’s argument.
Havoco began in the U.S. Bankruptcy Court for the
Northern District of Florida. There, creditor Havoco of
America, Ltd. objected to the chapter 7 debtor’s homestead exemption on the basis that the debtor converted
non-exempt assets into exempt ones, including the
homestead, “with the intent to hinder, delay, or defraud
his creditors.”105 The bankruptcy overruled the creditor’s objection, concluding that Florida law did not prohibit the conversion of non-exempt assets into an
exempt homestead even when the debtor does so with
the speciﬁc intent to place assets beyond the reach of
103

Englander, 95 F.3d at 1030–32.
Rather, the Eleventh Circuit noted that “[b]ecause the
only exceptions to homestead exemption are those speciﬁcally
enumerated in the Florida Constitution, courts have refused to
create new ones.” Id. at 1031.
105
Havoco of Am., Ltd. v. Hill, 197 F.3d 1135, 1136 (11th Cir.
1999).
104

App. 72
his creditors. The district court afﬁrmed.106 On appeal,
the Eleventh Circuit certiﬁed the following question to
the Florida Supreme Court:
Does Article X, Section 4 of the Florida Constitution exempt a Florida homestead, where
the debtor acquired the homestead using nonexempt funds with the speciﬁc intent of hindering, delaying, or defrauding creditors in violation of Fla. Stat. § 726.105 or Fla. Stat.
§§ 222.29 and 222.30?107
The Florida Supreme Court answered the certiﬁed
question in the afﬁrmative. After a detailed review of
its homestead related jurisprudence, including its
cases involving equitable liens, the Florida Supreme
Court concluded:
The transfer of nonexempt assets into an exempt homestead with the intent to hinder,
delay, or defraud creditors is not one of the
three exceptions to the homestead exemption
provided in article X, section 4. Nor can we
reasonably extend our equitable lien jurisprudence to except such conduct from the exemption’s protection. We have invoked equitable
principles to reach beyond the literal language of the exceptions only where funds obtained through fraud or egregious conduct
were used to invest in, purchase, or improve
the homestead.108
106
107
108

Id. at 1136–37.
Id. at 1144.
Havoco, 790 So. 2d at 1028.

App. 73
In reaching its holding, the court observed that “in harmony” with the liberal construction of the homestead
exemption is the “strict construction as applied to the
exceptions.”109 Though the court acknowledged that it
had “strayed from the literal language of the exemption where the equities have demanded it” (i.e. the equitable lien cases), the court added that it had done so
only in the rarest of circumstances and then only with
“due regard” to the provision’s three exceptions.110
With the certiﬁed question answered, the Eleventh Circuit afﬁrmed.111
It is clear therefore that Florida law does not permit the outright denial of a debtor’s homestead exemption based upon allegations of fraud, no matter how
egregious, unless funds obtained through such fraud
were then used “to invest in, purchase, or improve the
homestead.”112 And gerrymandering a homestead exemption, the very purpose of which can only serve to
minimize value due the estate and “cheat” creditors, is
simply a species of fraud.
The Court does not condone Mr. Cole’s conduct
in this case. His sworn schedules in this case are misleading. His explanations for the lot split are not credible. But under Florida law, he is nevertheless entitled

109
110
111
112

Id. at 1021.
Id. at 1023–24.
Havoco, 255 F.3d. 1321.
Havoco, 790 So. 2d at 1028.

App. 74
to his constitutional homestead exemption.113 Accordingly, to the extent PRN’s Objection seeks to deny Mr.
Cole’s homestead exemption outright, it is overruled.
II.

The Submerged Land as Part and Parcel of
the Homestead
(a)

Arguments of the Parties

Both PRN and the Trustee argue that the Court
should ﬁnd that the Submerged Land belongs to the
Debtor and must be included along with the Upland
Property in evaluating Mr. Cole’s homestead exemption claim.
Debtor, on the other hand, argues that the Submerged Land belongs to the State of Florida and may
not be considered by the Court in apportioning the
value due to his homestead claim.
(b)

Analysis

Without doubt, the issues surrounding the ownership of the Submerged Land are both fascinating and
complex. Both PRN and Debtor have presented reasoned arguments. And both PRN’s and Debtor’s experts provided compelling and credible testimony. But
in the end, the Court ﬁnds that it need not decide the
issue given the Eleventh Circuit’s decision in In re
Kellogg.114
113
114

See Havoco, 790 So. 2d 1018.
Kellogg, 197 F.3d 1116.

App. 75
In Kellogg, a chapter 7 debtor claimed the homestead exemption on his Palm Beach oceanfront property, which was located within the city and was
approximately 1.3 acres in size. The debtor claimed the
entire parcel, which he noted was “indivisible,” and valued his exemption based on the tax assessor’s value for
the entire parcel. The chapter 7 trustee objected to the
debtor’s claimed exemption. At trial, the court heard
testimony from the Palm Beach zoning administrator.
The administrator testiﬁed that under applicable zoning laws, the debtor could not legally subdivide his
property.115 Based upon this testimony, the bankruptcy
court ordered that the property be sold and the proceeds apportioned.116
On appeal, the Eleventh Circuit examined
whether the debtor should be allowed to carve out a
half-acre portion of his property to keep as his homestead.117 Citing Englander, the court concluded that
the bankruptcy court correctly directed a sale of the
property and the apportionment of the proceeds.118
In its analysis, the Eleventh Circuit held that
where property claimed as homestead is located within
a city and exceeds the one-half acre limitation, a debtor
may reasonably designate a portion that is exempt “so
long as the remaining portion has legal and practical

115
116
117
118

Id. at 1118.
Id. at 1118–19.
Id. at 1120.
Kellogg, 197 F.3d at 1121.

App. 76
use.”119 In Mr. Kellogg’s case, the court noted that any
non-exempt portion would have no such use to the
chapter 7 trustee because to convey that portion would
violate local zoning laws. The court therefore rejected
Mr. Kellogg’s attempt to designate an exempt half-acre
to retain as his homestead. In doing so, the court noted
that if the debtor “could not lawfully divide his land
into two parcels before declaring bankruptcy, he should
not be allowed to use his homestead exemption to circumvent zoning regulations after ﬁling his petition.”120
Because he had failed to obtain a variance before the
ﬁling, the court determined that it must consider the
property indivisible. The circuit rejected, on procedural
grounds, the debtor’s argument that he could obtain
the necessary zoning variance, if allowed to pursue the
matter.121
Unwilling to concede defeat, the debtor argued
that the constitutional homestead exemption cannot
yield to local zoning ordinances. Dismissing the argument, the court noted that after the sale, the debtor
could use his share of the proceeds to purchase a new
homestead.
The Florida constitution grants Kellogg the
right to exempt up to one-half acre of municipal property; it does not grant him the
119

Id. at 1120; see Quraeshi v. Dzikowski (In re Quraeshi),
289 B.R. 240, 243 (S.D. Fla. 2002); see also Siewak v. AmSouth
Bank, No. 8:06-CV-927-T-24EAJ, 2007 WL 141186, at *3 (M.D.
Fla. Jan. 16, 2007).
120
Kellogg, 197 F.3d at 1120.
121
Id. at 1119–21.

App. 77
inalienable right to homestead in his particular part of Palm Beach, where he chose to live
knowing his property could not be subdivided
into an exempt one-half-acre parcel.122
Here, as in Kellogg, Mr. Cole seeks to circumnavigate local zoning regulations and protect his homestead claim by asking the Court to overlook the fact
that his splitting of the Property was not allowed under local zoning laws. There is no dispute that Mr. Cole
never sought a variance, even after the fact, to bless
his partition of the Property. And it is undisputed that
as of the petition date, Debtor had record title to both
the Upland Property and the Submerged Land.
Granted, Mr. Cole’s partitioning of the Property was
accomplished prepetition, but it is without dispute that
the partition, without a variance, would not be legally
permissible under the City of Maitland’s zoning code.
Further, Mr. Cole admits that the Submerged Land by
itself is of little value and utility. Thus, by his own admission, the designated non-exempt portion of the
Property would have no practical use to the Trustee.123
Accordingly, under the rubric of Kellogg, the Court

122

Id. at 1121–22.
Ironically, Mr. Cole acknowledged at trial that the value
of the Upland Property is increased because of its proximity to the
Submerged Land yet accords none of that added value to the Submerged Land. As discussed, infra, it would be inequitable to permit Debtor to ignore that which gives his claimed homestead
signiﬁcant value.
123

App. 78
must treat the Property as indivisible124 and directs
the sale of the Property and allocation of the proceeds.
The Court also declines to decide the issue of the
ownership of the Submerged Land as a matter of equity. If the Court were to decide the issue, it would give
support to Mr. Cole’s blatant and inequitable actions in
partitioning the Property on the eve of his bankruptcy
ﬁling. At trial, Mr. Cole attempted to explain away the
Warranty Deeds, characterizing his actions as a mere
“bifurcation of Deed,” by saying he did not intend to
create another lot and did not do so pursuant to the
City’s code.125 His testimony, however, is contradicted
by Ms. Blanchard, who testiﬁed that whenever a property owner divides a single parcel of real estate into
two the City considers it a lot split and that a property
owner’s intentions have no bearing on the matter. Mr.
Cole also testiﬁed that he believed he was taxed only
on the Upland Property and that he believed a variance would not be required. But Mr. Cole’s admitted
expertise in matters of real estate belies his assertions
of ignorance. Further, as PRN notes, Mr. Cole did not
124

See also In re Baxt, 188 B.R. 322, 323–24 (Bankr. S.D. Fla.

1995).
125

Notably, Art. X § 4 of the Florida Constitution speaks only
of “contiguous land.” It is not required that the land be a single
lot or that the claimant hold title by a single deed. See, e.g., In re
Mohammed, 376 B.R. 38 (Bankr. S.D. Fla. 2007) (permitting
chapter 7 debtors to claim the homestead exemption in each of
two contiguous lots, of which one was vacant and one contained
their residence, even though the lots were acquired in separate
transactions and assessed separately for tax purposes, where the
combined acreage of the lots did not exceed the acreage limitation).

App. 79
offer any of this testimony at his Rule 2004 examination.
In the end, Mr. Cole attempts to explain his splitting of the Property as simply trying to identify his
homestead parcel. The Court does not ﬁnd Mr. Cole’s
testimony on the issue to be credible. For that matter,
Mr. Cole ignores the fact that the Upland Property in
which he claims his homestead exemption by itself exceeds one-half acre, a fact he does not clearly identify
in his bankruptcy schedules. Further, on the ownership
issue, the Court cannot overlook the fact that he did
not use the ordinary high water mark as the dividing
line between the two parcels, as would be the case if
Mr. Cole truly believed at that time that the Submerged Land belonged to the State of Florida. And despite ample opportunity to do so, Debtor has never
amended his schedules to disclaim ownership of the
Submerged Land, nor did he include, at trial, this
among the inaccuracies he testiﬁed to in his schedules.
And last, as suggested by the Trustee, the Court
does not believe that it is the proper court to determine
the issue of title to the Submerged Land as between
the Debtor and the State of Florida. If almost 150 years
of record title history are to be tossed aside, particularly in the absence of a contrary claim to title, it is for
a state court of competent jurisdiction to do so.
The State of Florida may well have a claim to the
Submerged Land and to all of Lake Minnehaha for
that matter. But according to Dr. Knetsch, it has yet
to assert any such claim. The court is unaware of any

App. 80
authority that would allow it to place record title in the
Submerged Land into the state against its wishes,
much less without its participation.126 And the court
cannot ignore the effect such a ruling might have on
the interests of third parties who had no part—or even
notice—of this proceeding. Other private owners of
property on Lake Minnehaha, the City of Maitland and
its residents, and the likely cadre of secured mortgage
creditors, all could be adversely impacted. The only
winner, it seems, would be the Debtor.
In sum, the court views the matter of the state’s
interest, if any, in the Submerged Land as a potential
cloud on title. This may impact the value the Trustee
ultimately obtains for the Property upon sale or may
impact some future owner if and when the state elects
to lay claim to the Submerged Land or Lake Minnehaha more generally. But for purposes of this case
and in determining Debtor’s homestead exemption, the
Court concludes that it must assume that Debtor owns
all of the Property as a single indivisible parcel.

126

On this point, this case is distinguishable from the cases
relied upon by the Debtor. In each of those cases, the State of
Florida was a participant in the proceedings. For that matter, in
each of those cases, a private landowner was attempting to vindicate his ownership of a water body. See, e.g., Adams v. Crews, 105
So. 2d 584 (Fla. Dist. Ct. App. 1958). Here, Mr. Cole is attempting
the reverse.

App. 81
III. Allocating Sale Proceeds to Value Debtor’s
Homestead Claim
The Parties agreed not to include valuation issues
as part of the trial on the homestead exemption claim.
Accordingly, the Court decides only the method by
which the Court will allocate the net proceeds of the
sale once the Property’s value is ascertained.
(a)

Arguments of the Parties

Both PRN and the Trustee contend that Florida
law requires the Court to allocate the net sale proceeds
on a percentage basis calculated by comparing the allowed exempt acreage to the total acreage of the Property. In support, they rely on Quraeshi v. Dzikowski
(In re Quraeshi), 289 B.R. 240 (S.D. Fla. 2002). Applying the formula as argued by PRN and the Trustee,
Debtor would be entitled to 16.9% of the net proceeds.
Debtor asks the Court to apply the methodology
used by the Eighth Circuit in O’Brien v. Heggen, 705
F.2d 1001 (8th Cir. 1983), a case upon which the Eleventh Circuit relied for another reason in Englander.
Debtor’s proposed methodology for determining the
Trustee’s share would require a court to determine the
value per square foot of the subject real property in its
unimproved state—therefore allowing the Debtor to
retain the full value of his residence—and then multiply that value by the number of square feet the property exceeds the allowed acreage exemption. Debtor
acknowledges, but attempts to distinguish, In re
Quraeshi.

App. 82
(b)

Analysis

Several cases, including Englander and Kellogg,
hold that where a homestead property exceeds the
acreage limitation and is indivisible, the appropriate
means by which to honor the claimed homestead, while
also providing value to creditors, is to direct a sale and
allocate the net proceeds as between the debtor and
the estate. But none of these cases goes further to discuss how that allocation is to be made.127 The parties
have identiﬁed what appears to be the sole case interpreting the Florida homestead exemption in these circumstances—In re Quraeshi.
The Quraeshi court, citing the homestead provision’s plain language, including its express exceptions,
stated that “it would seem that a debtor’s homestead
exemption would extend to a pro rata portion of the net
proceeds of a sale of debtor’s property, based on his
acreage share of the property sold, rather than a pro
rata portion of the gross sales price.”128 Thus, the
court proposed that the sale proceeds should be allocated based upon a simple percentage of the exempt
acreage to the total acreage of the property. But as
Debtor correctly points out, the Quraeshi court was
not faced with the precise question here, rather the
court addressed the related inquiry of whether the

127

See Kellogg, 197 F.3d at 1121; Englander, 95 F.3d. at
1032; In re Baxt, 188 B.R. at 324–25.
128
In re Quraeshi, 289 B.R. at 244.

App. 83
apportionment was to be based upon the net proceeds
of the sale or the gross sale price.129
Notwithstanding the differing inquiry, this Court
agrees with the Quraeshi court that the proper method
of allocating the net proceeds in these circumstances
should be a simple percentage of the exempt acreage
to the total acreage of the subject property.
First, this method best aligns with the language of
the Florida Constitution. “While the Florida Constitution does not deﬁne the term ‘homestead,’ it does provide various limitations and requirements. Among
these are an acreage limitation, an ownership requirement, and a residency limitation.”130 Noticeably absent
is any value limitation.131 The Court therefore agrees
with the Trustee that were it to accept Debtor’s proposed value-based allocation method, it would introduce into Florida homestead law an element not
supported by the language of the constitution.
129

Id.
In re Wierschem, 152 B.R. 345, 347 (Bankr. M.D. Fla.
1993); see Englander, 95 F.3d at 1031.
131
Cf. Ala. Code § 6-10-2 (limiting homestead exemption to
$15,000 in value); Cal. Civ. Proc. § 704.730 (limiting homestead
exemption to $75,000–$175,000 in value depending on status of
residents); Mo. Rev. Stat. § 513.475 (limiting homestead exemption to $15,000 in value); N.Y. C.P.L.R. 5206 (limiting homestead
exemption to $75,000–$150,000 in value depending on county of
residence); Ohio Rev. Code § 2329.66(a)(1)(b) (limiting homestead
exemption to $125,000 in value); S.D. Codiﬁed Laws § 43-45-3
(limiting homestead exemption to $60,000 in value if property is
sold either voluntarily or involuntarily); Vt. Stat. tit. 27 § 101
(limiting homestead exemption to $125,000 in value).
130

App. 84
Second, this method is consistent with the approach used by courts when evaluating the residency
limitation contained in the homestead exemption
when the property is used for additional purposes
other than the debtor’s residence. For example, in In re
Wierschem,132 debtors lived in one of three units in one
of two dwellings on their beach front property. Debtors
rented out the remaining ﬁve units.133 The court directed that upon sale of the property, the trustee would
allocate the proceeds based upon the square footage of
debtors’ unit as a percentage of the total square footage attributable to the dwelling units.134
Third, this method is consistent with the public
policies underlying the homestead exemption.135 “The
[homestead] exemption is intended to protect the family home and not to unjustly impose upon the rights of
creditors.”136 Concentrating the value of a parcel of real
property into that portion of the property occupied by
the residence, as advocated by the Debtor, may serve
132

152 B.R. 345; see also In re Radtke, 344 B.R. 690 (Bankr.
S.D. Fla. 2006) (concluding that apportionment of the sale proceeds must account for mixed residential and commercial use of
the property); In re Pietrunti, 207 B.R. 18 (Bankr. M.D. Fla. 1997)
(concluding that debtors were entitled to claim as homestead 1.25
acres of a total 5 acres where debtors resided only in 1 of 4 residences located on the parcel).
133
In re Wierschem, 152 B.R. at 346.
134
Id. at 349 (“[T]he debtors shall be entitled to the portion
of the net proceeds that the square footage of the debtors’ residential unit bears to the total square footage of the two structures.”).
135
See Kellogg, 197 F.3d at 1120.
136
In re Wierschem, 152 B.R. at 349 (citing Hillsborough Inv.
Co. v. Wilcox, 152 Fla. 889, 891 (1943)).

App. 85
the former aim but not the latter. In fact, where realty
is not severable, it would necessarily affect a windfall
to a debtor while unjustly prejudicing the rights of
creditors. The homestead exemption aims “to promote
the stability and welfare of the state by securing to the
householder a home, so that the homeowner and his
or her heirs may live beyond the reach of ﬁnancial misfortune and the demands of creditors.”137 The exemption is not intended to protect a debtor’s standard of
living, particularly where that standard might be
found to be luxurious or excessive.138
Fourth, this method provides a simple formula of
easy application. It avoids expensive and protracted
litigation over valuation issues, which likely would require the use of expert testimony. The method the
Court adopts today conserves costs to the parties as
well as judicial resources. It also avoids potential
gamesmanship by debtors seeking in bad faith to increase their exemption at the expense of the bankruptcy estate and the trustee, who must defend such
tactics. And because of the ease of application, the
method also serves the Bankruptcy Code’s goal of efﬁcient administration of the estate.

137

Williams, 427 B.R. at 544 (quoting Snyder v. Davis, 699
So. 2d 999, 1002 (Fla. 1997))
138
See generally Smith v. Guckenheimer, 42 Fla. 1, 36–42
and 38 (1900) (“The creditor has a legal right to sell any property
of his debtor not exempt from execution. The constitution declares
that the exemption shall not apply to excessive improvements.
This is a constitutional command, as forceful and mandatory as
the other command to exempt the homestead.”).

App. 86
Debtor’s attempt to distinguish Quraeshi is not
persuasive. And his reliance on O’Brien is misplaced.
Although the Eleventh Circuit relied on O’Brien in
Englander, it did not do so for the principals relating
to the allocation of the sale proceeds.139 Moreover, the
Eighth Circuit in O’Brien did not conclude that the valuation methodology employed by the bankruptcy court
was “the” proper methodology to be used. Rather, it
found that the bankruptcy court’s factual ﬁnding as to
the apportionment of value to the non-exempt portion
of the property was supported by the evidence and not
clearly erroneous.140
For these reasons, the court concludes that the
proper method of allocating the net proceeds in this
case should be a simple percentage of the exempt acreage to the total acreage of the property.
CONCLUSION
Despite Mr. Cole’s inequitable and incredulous
attempt to gerrymander his homestead exemption,
Florida law commands that he cannot be denied his
constitutional homestead exemption on that basis. But
the Court will disregard his illegal partitioning of the
Property, treat the entire parcel as indivisible, and
direct its sale and the allocation of the proceeds. The
Court concludes that the net proceeds should be allocated as between the Debtor and the Trustee based on

139
140

Englander, 95 F.3d at 1032.
O’Brien, 705 F.2d at 1003–04.

App. 87
a simple percentage of the allowed exempt acreage to
the total acreage of the Property.
The Court will enter a separate Order consistent
with this Memorandum Decision.
Service of this Memorandum Decision, other than by
CM/ECF, is not required as the interested parties are
registered CM/ECF users. Local Rule 9013-1(b).

App. 88
ORDERED.
Dated:

April 04, 2019

[SEAL]

/s/ Cynthia C. Jackson
Cynthia C. Jackson
United States Bankruptcy Judge
UNITED STATES BANKRUPTCY COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
www.flmb.uscourts.gov
In re:
WILLIAM W. COLE, JR.,
Debtor.

/

Case No.
6:15-bk-06458-CCJ
Chapter 7

ORDER SUSTAINING, IN PART, OBJECTIONS
TO DEBTOR’S CLAIM OF EXEMPTION
(Homestead Exemption)
THIS CASE is considered following trial on Creditors PRN Real Estate & Investments, Ltd. and Nancy
A. Rossman’s Objection to Debtor’s Claimed Homestead Exemption (Doc. No. 104) and Chapter 7 Trustee
Lori Patton’s Objection to Debtor’s Claim of Homestead
Exemption (Doc. No. 116) (together, the “Objections”).
After considering the evidence and the governing case
law, and for the reasons stated in the Court’s Memorandum Decision entered concurrently with this Order

App. 89
(Doc. No. 788), the Court sustains the Objections, in
part.1
It is therefore ORDERED:
1. The Objections (Doc. Nos. 104 and 116) are
sustained, in part.
2. Debtor is entitled to claim a homestead exemption, which is limited to one-half acre. See Fla.
Const. Art. X § 4.
3. For purposes of this chapter 7 case, the illegal
lot split shall be ignored. Further, the Submerged Land
is deemed to belong to the Debtor and shall be considered in the determination of the claim of exemption.
4. Upon sale of the Property, Debtor shall be entitled to retain 16.9% (.5 acres / 2.95 acres) of the net
sale proceeds. This allocation is without prejudice to a
reﬁnement of the stipulated acreage for the Property.
Service of this Order, other than by CM/ECF, is not
required as the interested parties are registered
CM/ECF users. Local Rule 9013-1(b).

1
Capitalized terms shall have the meaning attributed to
them in the Court’s Memorandum Decision (Doc. No. 788).

